<html>
<title> - THE LISBON TREATY: IMPLICATIONS FOR FUTURE RELATIONS BETWEEN THE EUROPEAN UNION AND THE UNITED STATES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   THE LISBON TREATY: IMPLICATIONS FOR FUTURE RELATIONS BETWEEN THE 
                             EUROPEAN UNION
                         AND THE UNITED STATES

=======================================================================


                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON EUROPE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 15, 2009

                               __________

                           Serial No. 111-69

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
54-133                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f283f200f2c3a3c3b272a233f612c202261">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER,                       DONALD A. MANZULLO, Illinois
    Florida<greek-l>Until 1/4/       EDWARD R. ROYCE, California
    10 deg.                          RON PAUL, Texas
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
BILL DELAHUNT, Massachusetts         MIKE PENCE, Indiana
GREGORY W. MEEKS, New York           JOE WILSON, South Carolina
DIANE E. WATSON, California          JOHN BOOZMAN, Arkansas
RUSS CARNAHAN, Missouri              J. GRESHAM BARRETT, South Carolina
ALBIO SIRES, New Jersey              CONNIE MACK, Florida
GERALD E. CONNOLLY, Virginia         JEFF FORTENBERRY, Nebraska
MICHAEL E. McMAHON, New York         MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                         Subcommittee on Europe

   BILL DELAHUNT, Massachusetts, Chairman<greek-l>As of 12/2/09 deg.
JOHN S. TANNER, Tennessee            ELTON GALLEGLY, California
ALBIO SIRES, New Jersey              GUS BILIRAKIS, Florida
MICHAEL E. McMAHON, New York         JOE WILSON, South Carolina
SHELLEY BERKLEY, Nevada              TED POE, Texas
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
DAVID SCOTT, Georgia                 BOB INGLIS, South Carolina
JIM COSTA, California                J. GRESHAM BARRETT, South 
VACANT                                   Carolina<greek-l>As of 12/2/
                                         09 deg.
             Cliff Stammerman, Subcommittee Staff Director
          Brian Forni, Subcommittee Professional Staff Member
          Richard Mereu, Republican Professional Staff Member
                      Celia Richa, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Philip H. Gordon, Assistant Secretary, Bureau of 
  European and Eurasian Affairs, U.S. Department of State........    10
Karen Donfried, Ph.D., Executive Vice President, German Marshall 
  Fund of the United States......................................    31
Ms. Sally McNamara, Senior Policy Analyst, European Affairs, 
  Margaret Thatcher Center for Freedom, The Heritage Foundation..    42
Daniel Hamilton, Ph.D., Richard von Weizsacker Professor and 
  Director of Center for Transatlantic Relations, The Paul H. 
  Nitze School of Advanced International Studies, Johns Hopkins 
  University.....................................................    50

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Philip H. Gordon: Prepared statement...............    13
Karen Donfried, Ph.D.: Prepared statement........................    35
Ms. Sally McNamara: Prepared statement...........................    44
Daniel Hamilton, Ph.D.: Prepared statement.......................    55

                                APPENDIX

Hearing notice...................................................    84
Hearing minutes..................................................    85


   THE LISBON TREATY: IMPLICATIONS FOR FUTURE RELATIONS BETWEEN THE 
                  EUROPEAN UNION AND THE UNITED STATES

                              ----------                              


                       TUESDAY, DECEMBER 15, 2009

                  House of Representatives,
                            Subcommittee on Europe,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m. in 
room 2172, Rayburn House Office Building, Hon. William D. 
Delahunt (chairman of the subcommittee) presiding.
    Mr. Delahunt. This hearing will come to order. It has been 
my customary practice when I would chair the Subcommittee on 
International Organizations, Human Rights and Oversight to make 
it rather informal in the sense of rules. In fact my ranking 
member, another gentleman from California, Mr. Rohrabacher, 
described it as the committee without rules, and it would be my 
intention to continue to have that informality and flexibility 
in terms of the 5-minute rule, the 10-minute rule, but we would 
ask all of our witnesses to be circumspect in terms of the 
amount of time that they use. But I prefer that people feel 
comfortable, take their time, and it also applies to members. 
We generally have a conversation, members are allowed to pursue 
a line of questioning without being concerned about the gavel.
    But in any event, let me first extend I guess my welcome, 
or it should be his welcome to me, to my other friend from 
California, the ranking member, Mr. Gallegly, with whom I have 
served some 14 years on the House Judiciary Committee. We have 
an excellent working relationship. We agree on some things on 
the Judiciary Committee, like what, what is it, Elton? But I 
presume on this subcommittee there will be much agreement with 
occasional disagreements, but they will be done in such ways as 
I know our personal relationship has always been one of mutual 
respect and good camaraderie.
    So it is with a deep sense of responsibility that I am 
conducting my first hearing as chair of the Subcommittee on 
Europe. As I agree with the observation of Secretary Clinton, 
who noted that Europe is our essential partner, and that the 
subject of today's hearing, the Lisbon Treaty, would appear to 
signal a substantial change in the infrastructure of the 
European Union, and thus it behooves us to be especially aware 
for the potential implications for that partnership as there is 
no other relationship closer or more significant for the United 
States and for that matter Europe.
    The economic data is empirical proof of that premise. 
According to the delegation of the EU to the United States, 
transatlantic flows of trade and investment amount to far in 
excess of $1 billion a day, and together our global trade 
accounts represent 40 percent of world trade and 50 percent of 
global GDP. Furthermore, it is my own belief that this 
partnership is a predicate for political and economic stability 
and the expansion of democratic values globally. Now the 
evolution of a European entity has been dramatic in a 
historical context since Robert Schuman's famous speech back in 
1951 proposing that France and Germany pool their coal and 
steel resources into a new organization that other European 
nation states could join.
    Now I won't take the time to review the history that led to 
the Lisbon Treaty, but I believe that as the evolution and 
growth of the EU proceeded over time, our partnership with the 
EU became ever more critical and will clearly continue to do 
so. As President Obama recently stated in response to the final 
approval of the Treaty, a strengthened and renewed EU will be 
an even better transatlantic partner with the United States.
    Some experts suggest that the passage of the Lisbon Treaty 
will have positive implications for the United States, Europe, 
EU relations, in part due to the creation of new posts such as 
the European Council President and High Representative for 
Foreign Affairs, along with an increased role for the European 
Parliament, dear to the heart of many Members of the United 
States Congress, I might note. That combined with more 
authority in specific policy areas, these changes would provide 
the EU with a more coherent voice, and given our shared vision 
for democracy, human rights and global security, these new 
allocations of power within the EU system could offer the U.S. 
a more active and assertive overseas partner in addressing our 
shared challenges and in promoting our common causes.
    While some cast the premise that deeper integrations and 
enlargement of the EU are threats to America's leverage over 
individual member states, it is my own conviction that the 
interest of having a stable and dependable multilateral partner 
in Europe outweighs the short term interests of any particular 
bilateral relationship. Now, why hold a hearing on the 
implications of the Lisbon Treaty at this admittedly premature 
juncture? Much ambiguity exists as to the Treaty's 
implementation within the EU even among its own member states, 
much less in working relations with other nations.
    It is indeed accurate to say, as with all reform, that only 
trial and practice will reveal a measure's true character and 
consequence. But as we have seen all too often, in the cases of 
wars on terror and wars on drugs, financial regulation, and 
global warming, it is our lack of foresight and thoughtful 
consideration to anticipate and prepare for new challenges and 
opportunities that diminishes our ability to promote and 
preserve the interests and well being of our own citizens. It 
was our sixth President of the United States, John Quincy 
Adams, who warned, ``Idleness is sweet and its consequences are 
cruel.''
    For those of you who attend these subcommittee hearings in 
the future, be prepared for constant references to John Quincy 
Adams. He was not only the first Ambassador to Russia, but he 
is my immediate political predecessor, in other words I am his 
direct political descendant since he and I are the only native 
sons of Quincy, Massachusetts, to serve in the United States 
Congress. He is therefore a very quotable source for me. I only 
hope that I don't end like John Quincy Adams, whom some of you 
might know was President and then came back to the House of 
Representatives and happened to die in the chamber of the House 
of Representatives. But he was obviously a large figure in 
American history.
    So proactive inquiry and thoughtful consideration facing 
the EU-American relationship will not only inform us what may 
occur, but better prepare us for whatever options may be 
available as we move forward. So it is with this purpose that 
we hold today's hearing. Understanding the meaningful reforms 
encompassed in the Lisbon Treaty will assist our Government in 
making the most of the essential relationship. President Obama 
has aptly stated that in America there is a failure to 
appreciate Europe's leading role in the world. I concur with 
that. With this in mind, and by holding this hearing here 
today, we are taking Europe and the EU and the individual 
member states seriously. So with that I will conclude and yield 
to the ranking member, Mr. Gallegly, for any comments he wishes 
to make.
    Mr. Gallegly. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing on the Lisbon Treaty and its 
effect on the U.S.-EU relationships. Dana is always coming 
through, he may be a little more tolerant of the no rules or 
the diminished structured rules, but I am sure we are going to 
work well together, it has been an honor to serve with you on 
the Judiciary for all these many years, and while as you 
mentioned we have had some disagreements as it relates to 
issues philosophically and maybe even politically on occasion, 
but I don't think we have ever been disagreeable on any issue 
we have ever dealt with, and as the former chairman of this 
committee for a couple terms when Rob Wexler was my ranking 
member, and then something happened somewhere along one of the 
political cycles that changed all that, I did have the honor to 
work with Rob as the chairman and as his ranking member, and I 
enjoyed every minute of it as I look forward to working with 
you, Mr. Chairman.
    As we all know, on December the 1st, following ratification 
by all 27 member states in the European Union, the Lisbon 
Treaty went into force. In the end, the goal of the Lisbon 
Treaty is to streamline decision making in the EU and make it 
more active and united actor in international affairs. I don't 
have a strong view on whether the Lisbon Treaty will be 
beneficial to the people of Europe, this is the decision for 
the nations of the EU and their citizens to ultimately make. 
They are the best judge on the best way to organize their own 
political and economic affairs.
    However, I will be monitoring the implementation of the 
Treaty to determine its effect on the United States 
relationship with the sovereign countries in Europe. For 
example, will the ratification of the Lisbon Treaty in any way 
impede our close bilateral military and intelligence 
relationships that we maintain with certain European countries? 
Or will the new Treaty make it more difficult for the countries 
of Europe to cooperate with us, particularly in places like 
Afghanistan.
    Finally, I was very interested to read Ms. McNamara's 
statement in which she cites the provision in the Lisbon Treaty 
that requires EU countries to consult the other members before 
undertaking international action and to ensure that such 
actions are consistent with the EU policy. I find this 
provision to be potentially troublesome. Judging by its recent 
history, one can only imagine what the EU reaction would be to 
the actions taken by some of our close allies such as Britain 
on a variation of national security issues. Again, Mr. 
Chairman, thank you for calling this hearing today, I welcome 
and look forward to hearing the testimony of all our witnesses 
and certainly welcome Assistant Secretary Gordon. And I would 
yield back, Mr. Chairman.
    Mr. Delahunt. Thank you, Mr. Gallegly. And let me note the 
presence of the chairman emeritus way down at the end, Mr. 
Wexler. I am sure he is here to monitor my performance, I am 
sure shortly after the conclusion of this particular hearing I 
will be receiving a report card from Professor Wexler. But let 
me yield to him to see whether he has any comments that he 
wishes to make. With that, the gentleman from Florida, my 
friend Bob Wexler.
    Mr. Wexler. Thank you, just one. Understanding that 
Secretary Gordon is quite a draw, I had the privilege of 
chairing this committee for 3 years and none of you guys ever 
showed up, and now it is a full boat. So what does that have to 
say?
    Mr. Delahunt. I think it says a lot, Bob, actually.
    Mr. Wexler. Thank you very much, please proceed.
    Mr. Delahunt. Thank you. Do any other members wish to make 
an opening statement? The gentleman from New Jersey, Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, and congratulations, I 
am sure that we are going to be able to work on many issues 
together, some not so closely as others, but you know that I 
appreciate and I respect your friendship. Thank you, Mr. 
Chairman, for holding today's hearing. On December 1st the 
Lisbon Treaty went into effect. The Treaty was designed to 
improve the procedures of the European Union in hopes of 
progressing the Union's work in Europe and around the globe. I 
applaud the EU members for their achievement in passing this 
substantial reform after years of negotiations.
    However, despite the lengthy deliberation it remains to be 
seen how the Lisbon Treaty will affect the work of the European 
Union in practice and how this reform may impact U.S. relations 
with the EU and its members. Also, with this long process 
completed, I am eager to see where the new European Union will 
focus its energies next. I look forward to hearing from today's 
expert witness and welcome you to the hearing. And I would like 
to end by saying I enjoyed very much working with former 
Chairman Wexler on this committee for the years that he was 
here. Thank you very much.
    Mr. Delahunt. Thank you, Mr. Sires.
    The gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman, and I too want to 
congratulate you on your first hearing as the chairman of the 
Europe Subcommittee. Surely anyone who arises or sends up to 
this chair has big shoes to fill, but perhaps no more so in the 
history of this committee as now as you fill the shoes of 
Congressman Wexler. But we all know that you are up to it, and 
we look forward to your leadership as we all know you are a 
passionate leader on the issues that exist between our country 
and Europe and also how important that partnership and 
friendship is and that you are a strong advocate for 
strengthening that bond. And as a new member of course I wish 
you the best in this influential subcommittee and look forward 
to working with you.
    And again thank you for calling this timely hearing on the 
Lisbon Treaty. Secretary Gordon, thank you for being here 
today. The Lisbon Treaty's ratification and its subsequent 
employment has left the United States with as many exciting 
prospects of increased cooperation as with questions on the 
future of U.S.-EU relations. Personally, I would encourage and 
invite our counterparts in the European Parliament to be more 
active on the Hill and to address these concerns as we will 
seek to interact with them as well.
    Mr. Chairman and Secretary Gordon, I am actually 
particularly concerned over noted trends toward protectionism 
in the European Union. Aside from hampering U.S. industry in 
the EU and hurting the EU economy, many fear that new rules, 
particularly the alternate fund managers directive, could lead 
to U.S. retaliation in the sort of a damaging trade dispute in 
the area of financial services. Furthermore, I have questions 
about the EU's new internal market chief Michael Barnier and 
his views on this legislation. We are encouraged by the work of 
the Transatlantic Economic Council to promote increased 
dialogue between legislators on this matter, Mr. Gordon, and we 
look forward to your testimony and your comments on these very 
important issues and as always are grateful for your appearance 
here. Thank you.
    Mr. Delahunt. And next let me go to the gentlelady from 
Nevada who chairs the Transatlantic Legislators Dialogue which 
just met recently with our European counterparts in New York 
and I understand it was a very robust and very productive 
session. Ms. Berkley.
    Ms. Berkley. Thank you, Mr. Chairman, and congratulations. 
I am looking forward to working with you on these issues as 
well as so many others. And of course my dear, dear friend Bob 
Wexler, if I praise him any more he is going to get a very 
swelled head, but he knows how much I will miss him and wish 
him well in his new endeavors. As the chairman said, I chair 
the Transatlantic Legislators Dialogue. For those that don't 
know what that is, it is an ongoing discussion between Members 
of the United States Congress and our European Union Parliament 
counterparts.
    We just attended our 67th meeting, it has been going on for 
well over 30 years with and without me. I have been chair for 
the last few years, and I can honestly say it has been an 
extraordinary experience for me. We meet twice a year, once in 
the United States, and we just concluded our 67th meeting in 
New York City, and once in Europe depending on who had the 
presidency of the EU. Our dialogue encompasses a number of 
issues starting many years ago just on foreign policy, and of 
course we talk about the Balkans and Iran, Iraq, Afghanistan, 
our relationship with Russia, the Middle East.
    But we have started to expand the scope of our discussions 
and we are now talking about the collective economies, 
especially in light of the financial meltdown that continues to 
plague all of us, trade issues, the TEC, that has become a 
large part of what we talk about. So I can tell you without 
fear of contradiction that at this latest meeting which took 
place last weekend in New York, the euphoria felt by the 
members of the European Union Parliament that were in 
attendance was palpable, and they are most excited to take this 
new Treaty and translate it into positive action not only among 
EU members and have a stronger, more transparent, and a better 
EU, but vis-a-vis their relationship with the United States and 
a strengthening of the transatlantic coalition.
    I am curious in you remarks and perhaps during Q&A, the 
Europeans have made a number of proposals to the American side 
of the Transatlantic Legislators Dialogue, everything from as 
simple as exchanging interns during the summer, which I think 
would be a very good thing, to strengthening our involvement in 
the TEC, additional meetings throughout the year rather than 
the two, we can certainly be doing video conferencing on 
specific issues, and tailoring our meetings so that maybe since 
we have now a good contingent of both Europeans, 27, and we had 
14 Congresspeople at the last TLD meeting, so it is a good 
number of people and many have areas of expertise that we would 
like to hone in on.
    But one of the most intriguing suggestions by the EU 
members is that they are setting up an office, a TLD office, 
here in the United States starting on January, right after the 
new year, that will interact with Members of Congress, so that 
legislation that we are considering they will get a handle on 
and its impact on the EU prior to enactment. They have asked 
that the United States Congress do the same, and I am curious 
as to what your opinion is. It is easy enough to do, we could 
pattern it after Helsinki and their arrangement, and so we have 
lots of possibilities, and I would be curious to hear, Mr. 
Gordon, what you think about that and where you see the TLD's 
role in this enhanced EU relationship through the Lisbon 
Treaty. And I thank you very much for your kind attention.
    Mr. Delahunt. I thank the gentlelady. And I would also 
echo, you know, the suggestion in terms of an American office. 
In fact the gentlelady I am sure is unaware but there was a 
former Member from Minnesota by the name of Gil Goodnik whom, 
along with myself, chaired the Congressional study group on 
Germany, and working with the then Chair Henry Hyde of the full 
committee raised that potential because it became clear to us 
that Members of Congress to a very large degree were unfamiliar 
with the basic structure of the EU and there needed to be a 
presence given the significance of Congress as an institution 
in American foreign policy. So I look forward to working with 
you on this.
    Ms. Berkley. It seemed, if I could, Mr. Chairman, there was 
discussion that the United States Congress is the weak link in 
our foreign policy discussions and involvement with the 
European Union, and I would rather not be considered the weak 
link in anything.
    Mr. Delahunt. Well I can assure you, you personally are not 
considered a weak link in anything. But with that, let me 
determine whether the gentleman from Georgia wishes to make an 
opening statement?
    Mr. Scott. Yes I would, Mr. Chairman, and let me start off 
by congratulating you on your new assignment. And I would like 
to add, for those of you who may not know, the chairman is the 
only Member of Congress with the distinctful photograph of him 
taken in Moscow downtown with the statue of John Quincy Adams. 
Many people did not know that John Quincy Adams has a statue of 
him in downtown Moscow, and the chairman was there and I was 
very proud.
    Mr. Delahunt. My memory, Mr. Scott, is that you were the 
photographer.
    Mr. Scott. Yes I was.
    Mr. Delahunt. I have not received the invoice yet, but I 
appreciate the photo.
    Mr. Scott. It was a great, great photo, and it was a great 
honor for me to take it, and I enjoyed that. And to you, Mr. 
Wexler, we really appreciate, I enjoyed serving on this 
subcommittee with you, and I wish you great success in your 
future endeavors. This is indeed a very timely hearing with the 
EU, some very perplexing questions and issues certainly present 
themselves. It is going to be very interesting to see how these 
reforms from the Lisbon Treaty impact on multiple layers.
    One, there are so many, but one that strikes out is what 
areas of conflict and duplication do we have now with the EU 
and NATO? Particularly in the new reform of mutual assistance, 
where one member enters into any kind of armed conflict the 
other members come to their aid, and that of course is the same 
of I think it is a chapter or amendment 5 within the NATO 
agreements as well. So I think that that is an area that 
certainly raises some questions.
    The other is, will the reforms of Lisbon Treaty in terms of 
the common defense that this reform has put forward strengthen 
a more aggressive foreign policy, a more protective one, and 
particularly as it relates to terrorism and what is going on in 
the Middle East? And particularly Afghanistan and Pakistan, 
will they offer a similar line of support as NATO? And then the 
overlapping of NATO and the EU, and one is 23 countries I 
believe, the other is 27, but they are many of the same 
countries, so that is a very area.
    And will there be a more aggressive approach to Russia 
particularly in the area of energy security and the monopoly 
that Russia has in that region in supplying nearly 40 percent 
of its natural gas and Russia's tendency to use that monopoly 
as a political tool, will they be more aggressive in how they 
respond to that? And I think that in terms of their efforts to 
move forward in a more responsive way with Iran on the 
sanctions, we have not had that.
    So I am really looking forward to this, I think that the 
Lisbon Treaty is very positive, and I think that we really need 
to examine it very thoroughly here, hopefully we can accomplish 
through our examination a sense of urgency to move the European 
Union to be more forceful, and it is good to see the underlying 
agreements within this Treaty appear to be moving the European 
Union in a more aggressive way in terms of a more robust 
defense, security, and foreign policy. And I look forward to 
hearing you and certainly asking some questions. Thank you, Mr. 
Chairman.
    Mr. Delahunt. Thank you, Mr. Scott.
    And before I go to my colleague on the Republican side, let 
me conclude and inquire from the vice chair, I understand, of 
this subcommittee, the gentleman from California, Mr. Costa, 
whether he wishes to make a statement.
    Mr. Costa. Yes, very quickly. Thank you very much, Mr. 
Chairman, and congratulations to you and your good work and to 
our past chairman as he seeks greener pastures. My colleagues 
who have commented about this being a very timely hearing I 
think are quite correct, and, Secretary Gordon, we are looking 
forward to your testimony as it relates to what portends with 
the Lisbon Treaty. As the vice chair of the Transatlantic 
Legislators Dialogue, I want to associate myself with the 
comments that the chair just made, it is I think a robust 
discussion that is taking place. As the European Parliament 
continues to participate under the Lisbon Treaty, we will 
continue to see exchanges.
    I think most of us are aware that the largest trading 
partner that the United States has is with Europe, and the 
dynamic nature of the relationship that has a tremendous 
history is important as we look forward. I also want to make 
comments as the chair of the Transatlantic Partners Network, 
and we work in collaboration, and what is less known is as a 
member of the smaller Portuguese caucus, Mr. Chairman, the 
Lisbon Treaty is so named because during the tenure of the 
Presidency of Portugal the Lisbon Treaty was finally concluded, 
and although it took several years to ratify we are honored to 
have the Ambassador from Portugal is here in the audience 
today, Ambassador Joao de Vallera, who has taken a great 
interest as all the members, 27 nation states of Europe, in 
successfully seeing the Treaty enacted.
    What this portends as to the Lisbon Treaty, stronger more 
coherent voice with the European Union is one of the goals, 
more streamlined decision making in their process, and 
increased transparency and democratic accountability. As the 
European network has expanded, we can only think 20 years ago 
the euro really had not developed, and today of course the euro 
is a very robust, strong currency that has created tremendous 
economic vitality not just in Europe but around the world. One 
can only imagine what 20 years from now the new European Union 
with the enactment of the Lisbon Treaty, or as we would say in 
Portuguese, Lisboa Treaty, we can hope whether or not it 
ultimately leads to some formation of a United States of Europe 
remains to be seen.
    We do know that when our country was formed and we achieved 
our independence we had the Articles of Confederation that were 
fairly ineffective and which ultimately led to the development 
of our Federal form of government and our Constitution. This is 
a very exciting time period, and the Lisbon Treaty, or as we 
would say Lisboa, is a work in progress. We look forward to the 
testimony that the secretary will provide us during this 
transition that is currently existing, and would like to get 
your insights as to what we might expect. Thank you.
    Mr. Delahunt. Thank you, Mr. Costa. Let me echo your kudos 
for the Ambassador from Portugal and for serving as a venue as 
well as a force in terms of the conclusion of this Treaty that 
we are discussing here today.
    And now let me, as I look to my right one more time, I am 
going to have to go to one of the best ranking members anywhere 
in the Congress, a lot of people were I think surprised by our 
ability to work on some extremely difficult issues together 
when I chaired the Oversight Committee, but I think we 
accomplished much more than was ever anticipated, and it was 
terrific working with the gentleman, my friend from California, 
Dana Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, I am here to wish you good 
luck in your new endeavor, but I do want to remind you that 
even today, if you will notice, I am not on your right, I am on 
your left. And I know that is very difficult to discern when 
you are talking about your good friend, Dana. About the remarks 
that were just made in terms of our European friends and the 
euro et cetera, I remember when in the 1990s when we used our 
currency stabilization fund to save the euro. The euro was 
going down, I was very upset that President Clinton, you know, 
saw it in his power, which was not granted him by Congress, to 
stabilize the euro with our funds when the fund that he was 
using was for the United States dollar.
    But we did that and we saved the euro, and I think that it 
was certainly an act of good will on the part of the people of 
the United States, because there wouldn't even be a euro now. I 
am very anxious to find out whether or not our European friends 
are being reciprocal in that, whether or not now that the 
dollar is under attack, what are they doing to help us 
strengthen the dollar, or are they instead taking advantage of 
a situation and kicking a friend while he is down?
    Mr. Chairman, again congratulations for assuming this new 
chairmanship. Today we have heard congratulations and best 
wishes to Representative Wexler for the job that he has done, a 
great job that he has done, for the many accomplishments that 
he has had. We have also heard some very hopeful words about 
the Lisbon Treaty and the sense of optimism that that might be 
something that will play a positive role in the future. Let me 
fully identify myself with the former words of congratulations 
and not the latter words of hopeful, perhaps irrational 
optimism. Thank you, Mr. Chairman.
    Mr. Delahunt. Thank you, Mr. Rohrabacher.
    And last but not least certainly, a senior statesman in the 
U.S. Congress, the gentleman from Tennessee, the retiring John 
Tanner.
    Mr. Tanner. Mr. Chairman, I may add my good wishes to you 
in your new endeavor and thank Mr. Wexler for his past 
leadership. Mr. Secretary, thank you for being here. As you 
know, I have been very active in the NATO Parliamentary 
Assembly. Mr. Scott touched on some of the matters that we just 
recently discussed at our fall plenary meeting in Scotland. I 
have been going to NATO PA since General Joulwan was SACEUR. 
General Joulwan, General Clark, General Jones, General Ralston, 
General Craddock, and I just met with Admiral Stavridus 3 weeks 
ago. All of them have I guess in one way or another bemoaned 
the fact that the coordination between NATO and the EU, and 
with respect to Afghanistan right at the moment, is lacking.
    And I would be very interested in your insight and your 
opinions as to how the Lisbon Treaty, if it will, will help 
that situation, because there are so many things that the EU 
could do that NATO is not the best vehicle in terms of some of 
the civilian projects, PRTs and so on. The other question I 
would have, or observation, is the scarcity of resources. Many 
of the EU members are also NATO members, and the last thing we 
need is duplicity in a resource scarce world with regard to 
that, and I would be very much interested in your insight as to 
that. So, Mr. Chairman, thank you for holding this hearing, it 
is very, very timely.
    Mr. Delahunt. Well thank you, Mr. Tanner, and I know that I 
speak for everyone when I say thank you for your long and 
significant service to issues such as NATO and our national 
security and our relationship particularly with Europe. Without 
any further ado, thank you for your patience, Assistant 
Secretary Gordon, it is great to have you here. I will be brief 
in your introduction. The assistant secretary was nominated as 
assistant secretary in March of this year and took the oath on 
May 15th.
    From 2000 to 2009 he was a senior fellow at the Brookings 
Institute in Washington where he focused on a wide range of 
Europe and United States foreign policy issues. He was Director 
for European Affairs at the National Security Council during 
the Clinton administration where he played a key role in 
developing and coordinating NATO policy in the run up to the 
Alliance's 50th anniversary summit in Washington. He has an 
extensive background academically as well as service to his 
country. So thank you, Mr. Assistant Secretary, and please 
proceed.

    STATEMENT OF THE HONORABLE PHILIP H. GORDON, ASSISTANT 
   SECRETARY, BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Gordon. Thank you, Mr. Chairman, Mr. Gallegly, and 
thanks to all of you. I would also like to begin by 
congratulating you, Mr. Chairman, on taking over this 
committee. As you all know I have had extensive engagement with 
this committee over the years, and I will look forward to 
continuing that under your leadership. And I too would like to 
acknowledge and thank your predecessor, Mr. Wexler, we all 
benefitted from his leadership of this committee over the years 
and note he will stay engaged on all of these issues.
    I also want to thank you for inviting me to testify on this 
subject at this time, because as many of you have pointed out, 
this really is a potentially important development that the 
United States should be paying close attention to as we think 
about our own interests. I have submitted more detailed 
testimony for the record, so if it is all right with you and 
abiding by your encouragement to be brief, I will just make a 
short opening statement.
    Mr. Delahunt. Please.
    Mr. Gordon. The United States and the European Union form a 
community of shared values and a partnership of shared 
interests. Our 800 million democratically governed citizens are 
bound together by enduring links of culture and commerce, by 
our shared history, and by our common hopes for the future. The 
European Union is one of our most crucial partners in 
addressing regional and global challenges around the world. Our 
shared priorities cover all the major United States foreign 
policy concerns, including stabilizing Afghanistan and 
Pakistan, contending with the Iranian nuclear program, 
addressing global climate change, pursuing comprehensive peace 
in the Middle East, managing our responses to the global 
financial crisis, enhancing energy security, and promoting the 
spread of democratic and market reforms to every corner of 
Europe.
    The United States-Europe economic relationship is one of 
the central drivers of the world economy, our links are not 
just those of shared values, trade, and political traditions, 
but also consist of the millions of our citizens who travel 
each year to our countries to work, study, or simply visit. In 
view of the many ties that bind the United States and Europe 
together, the Obama administration welcomed very much the entry 
into force of the Lisbon Treaty on December 1st. We believe 
that this Treaty marks a milestone for Europe and its role in 
the world.
    It creates several new institutions, including the 
permanent presidency of the European Council, a new EU High 
Representative for Foreign Affairs and Security Policy, and a 
new European External Action Service. There will also be an 
enhanced role for the European Parliament. These new and 
strengthened institutions will further promote the evolution of 
the European Union toward a more consistent, coherent, and 
effective foreign policy. We believe that a strong and cohesive 
Europe is very much in the United States national interest, and 
we look forward to the development of these institutions and to 
engaging with their new leaders, incoming President Herman Van 
Rompuy and the new High Representative Catherine Ashton, as 
well as with President Barroso of the European Commission and 
the leaders of the European Parliament.
    We are hopeful that a permanent presidency of the Council 
will allow for the development of a long term consultative 
relationship at the head of state and government level. The new 
High Representative for Foreign Affairs and Security Policy 
will combing responsibility for EU foreign policy coordination 
with a greater capacity to make strategic use of the EU's 
substantial foreign assistance budget, and will function as the 
permanent chair of the Foreign Affairs Council, the monthly 
meeting of EU foreign ministers.
    Secretary Clinton met with Catherine Ashton during her 
December 4 visit to Brussels for the NATO ministerial, and they 
have talked about an early visit by High Representative Ashton 
to Washington. High Representative Ashton will be supported by 
a new External Action Service that will ultimately function as 
a sort of diplomatic service for the EU and offer counterparts 
to U.S. officials. The Lisbon Treaty brings other noteworthy 
institutional changes. The European Parliament has gained 
increased powers over issues of justice and home affairs, the 
EU budget, agricultural policy, and trade agreements.
    We hope that ties and contacts between Members of Congress 
and EU legislators will continue to strengthen as the European 
Parliament's authority broadens. I think this reinforces a 
point made by many of you about the need for that, which we 
certainly support. A number of members of this committee, as 
Representative Berkley pointed out, met on December 4 to 6 with 
their European counterparts in New York under the Transatlantic 
Legislators Dialogue in what we understand were some of the 
most robust consultations so far between our legislators, and 
that can only be a good thing, and I hope in the question and 
answer period to be able to elaborate on this, but certainly 
given that this is a democratic space on both sides of the 
Atlantic we need to be connecting with the legislators and 
citizens on these foreign policy issues.
    The EU also continues to take steps toward fulfilling the 
European vision of the EU that contributes as much to diplomacy 
and defense as it does to trade and economics. Under Lisbon, 
the EU's European Security and Defense Policy, ESDP, is renamed 
the Common Security and Defense Policy, CSDP. The Treaty 
expands the scope of the EU in terms of crisis management 
deployments, peacemaking, supporting third countries in 
combating terrorism in their territories, and defense 
coordination. It is the policy of this administration to 
support a strengthened European defense capacity.
    We believe that CSDP can make an important contribution to 
international security and stability. We also believe that NATO 
and the EU, with 21 common members, can complement each other 
and should work closely together on their shared priorities. In 
our view, there is more than enough work to around, so it also 
makes sense, and again this addresses a point that several of 
you have made, it also makes sense for the two organizations to 
coordinate their efforts to make the most efficient use of 
scarce resources by minimizing duplications of capabilities, 
infrastructure, and operations.
    And let me conclude with what I think is the essential 
point behind our thinking. It is clear to all of us that the 
United States faces a daunting array of global challenges that 
no single country can handle on its own. For a variety of 
critical issues from climate change to the Doha Round of trade 
talks, the Balkans, Iran, I could name many others, solutions 
will require working in close concert with our European 
partners. We believe that the Lisbon Treaty represents an 
important effort by our EU partners to streamline their policy 
making process.
    We understand that, as with all efforts to reform complex 
institutions, and the EU is certainly one, this is a work in 
progress and it may take time for the new institutions to 
demonstrate their impact. Nevertheless, we hope that changes 
brought by Lisbon will make the EU a stronger partner for the 
United States and increase the role of Europe on the world 
stage. We want the EU to be that stronger partner and we 
certainly intend to do our part to engage closely with the new 
institutions. Ultimately, their effectiveness will be 
determined by the will of the EU member states to invest in 
them. Let me thank you again, Mr. Chairman, all the members of 
the committee, for the opportunity to appear before you on this 
important subject, and I look forward to your questions and our 
discussion. Thank you.
    [The prepared statement of Mr. Gordon 
follows:]<greek-l>Philipi Gordon deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Well thank you, Mr. Assistant Secretary, and 
as I was listening to your testimony, I found it thought 
provoking in the sense of future hearings. I have always 
contemplated the concept of a transatlantic free trade zone as 
you reference our commercial trade relationship, and have 
always been curious as to why it has not had more attention and 
more focus. I also, as I indicated earlier, serve on the 
Judiciary Committee, where both Mr. Gallegly and I have served 
on the Immigration Subcommittee, which implicates the Visa 
waiver program. And I am aware of the fact that there are some 
countries in Eastern Europe that have an interest in 
participating in that program and I think that ought to be a 
subject of a hearing.
    And I also concur with your statement about the need for 
coordination between the EU and NATO and a more efficient 
relationship there. But I am just going to ask one question, 
because if needs be I can always ask at the end before we 
conclude your testimony. But I have always been surprised, not 
just by the European ignorance of the role and the function of 
Congress in our Federal system, in our American democracy, but 
clearly the opposite is also true.
    As I mentioned in my opening remarks, to the American, the 
concept of the EU, you know, represents something at first 
blush as very simple, but it becomes much more arcane when the 
details are reviewed. There is a commission, there is a 
council, there is a Parliament and it is in Brussels, and what 
is it doing in Brussels? With all due respect to Brussels. The 
point is that this lack of understanding I think carries with 
it great risk. I think there are perceptions on the part of 
Members of Congress that sometimes there is animosity when in 
fact there is none, and are minimal disagreements as opposed to 
animosity. And I think it is very, very important to maintain a 
consistent, constant dialogue.
    And I respect the work that my colleagues under the 
leadership of the Congresswoman from Nevada have done, but I 
don't think we can afford at this point, with a new entity 
post-Lisbon that will be more efficient hopefully in terms of 
its decision making, not to have a significant presence in 
Brussels where there are consistent, constant, open lines of 
communication as opposed to an ad hoc series of meetings. And I 
intend to discuss this with Ms. Berkley, but I just put out on 
the table, why not a Congressional office? Obviously it would 
be bipartisan in nature, but having a presence with a well 
qualified staff, given the seriousness of the issues that we 
all know face both Europe and the United States?
    Mr. Gordon. Well I can certainly say I share your 
perception that there is insufficient familiarity on both sides 
with the institutions of the other, including on the 
parliamentary side, that partly stems from very different 
practices. We certainly encourage when visitors come here to 
talk foreign policy, we do encourage them to come up to the 
Hill, and a number of these European countries, their 
parliaments don't play the sort of role in foreign policy that 
ours do, and it is important for them to understand ours.
    In terms of the other direction, I would say this, one 
theoretical at least advantage of Lisbon is to be easier to 
understand. You know, we can forgive some Americans for not 
having mastered the intricacies of the council, the commission, 
the European Parliament and how that interrelates to the 
countries. And again in theory, this has to be proved in 
practice, but one of the ideas is to have a more identifiable 
interlocutor. And so now with a standing President of the 
Council and a standing High Representative, if you will foreign 
minister, it is a little bit clearer who is speaking for them 
on foreign policy.
    That said, and this comes to your point, Mr. Chairman, you 
know, let us not pretend that that will answer this question 
once and for all and that there will be just one phone number 
or individual, it will remain quite complicated and we are 
going to have to take advantage of your suggestion to 
understand it better including the European Parliament, which 
will play a greater role in foreign policy than it has. I don't 
really have a specific view on your idea of a Congressional 
office in Brussels, maybe that is something that could be 
explored and similarly in the other direction, but I certainly 
agree with the notion that it is worth thinking about how we 
can get our parliaments to understand the other side better.
    Mr. Delahunt. Mr. Assistant Secretary, it is my 
understanding that the European Parliament is or is about to 
open an office here in Washington, and without having a 
counterpart in Brussels I think we stand at a disadvantage. And 
like I said, I look forward to having this discussion with 
Congresswoman Berkley to see whether legislation (a) is 
necessary, or whether Congress as an independent institution 
can just simply appropriate the money and say that we are going 
to do it. But in any event I intend to make it a priority for 
myself and for this committee.
    With this I will yield to the ranking member Mr. Gallegly.
    Mr. Gallegly. Thank you, Mr. Chairman. Mr. Ambassador, can 
you give us your assessment as to how you see the impact that 
the Treaty will have on the U.S.-EU economic and trade 
relationship?
    Mr. Gordon. I think the Treaty will have limited impact on 
the economic and trade relationship. It has potentially 
significant impact on the general foreign policy relationship. 
Economics and trade is one area that was already significantly 
integrated in EU structures even prior to Lisbon. The 
Commissioner for Trade has for a long time been a powerful 
figure. EU member states a long time ago agreed to grant 
significant authority, for example when there is a trade 
negotiation it is the Trade Commissioner who is really 
empowered to act on behalf of all of the member states in a way 
that has not been true and remains untrue for foreign policy. 
So I don't think that we should expect Lisbon to have a major 
impact on that. EU common institutions have already been quite 
empowered, and that will not change with the Lisbon Treaty.
    Mr. Gallegly. How do you see the impact that the enhanced 
role of the European Parliament might have on the U.S.-EU 
relationship?
    Mr. Gordon. That is more of an open question because the 
Lisbon Treaty does give the Parliament a greater role, 
including to some degree on foreign policy and including 
something that is a tradition in this country as holding 
hearings for and approving some of the appointments that will 
be part of the foreign policy apparatus. And the Parliament 
will also play a greater role in justice and home affairs, 
issues that at least indirectly affect our interests.
    But precisely how, so we can confidently say the European 
Parliament will play a greater role. What we can't say, because 
it will depend in part on who gets elected to the European 
Parliament and how assertive they want to be and how resistant 
the people who fill the new posts want to be, is precisely what 
impact that will have, we don't know what direction that they 
will want to go in, but it comes back to the chairman's point 
about being better aware of developments taking place within 
the Parliament so that we know where they might be trying to 
push things.
    Mr. Gallegly. In another area, how do you see such things 
as a commitment of troops to wars and around the world or in 
areas of trade policy where a more coherent EU could pose some 
difficulties to the U.S. foreign policy objectives?
    Mr. Gordon. It could in theory pose difficulties for U.S. 
foreign policy objectives. But as I suggested in my testimony, 
we actually believe it is more likely to provide benefits in at 
least two ways. One is to have a more coherent European view of 
the situation and a more clear address for us to consult with 
on foreign policy challenges. And again through the new 
President of the Council and the High Representative we will be 
able to have this dialogue in a more direct manner with more 
direct representatives of the European Union. That is not going 
to be a cosmic jump from one situation to another.
    Member states of the EU, in particular the bigger, more 
active ones, will still play a predominant role and ultimately, 
and let us be clear about this, member states will still decide 
on issues such as whether to send forces abroad. When it comes 
to Afghanistan, not just because we are doing it in a NATO 
context, but anything like that, these questions will still be 
decided by countries and the institutions don't provide for it 
and we shouldn't expect the new President of the Council or the 
High Representative to take decisions like that. Nonetheless, 
they can play a coordinating role and a role in engaging with 
us.
    We also believe that by having a more coherent foreign 
policy and spokespeople for that foreign policy will help 
Europeans think strategically and raise their sights. By 
empowering people to think about these things and lead the EU 
we believe these institutions will give Europe a more prominent 
role on the world stage and therefore better balance the 
transatlantic relationship when it comes to thinking about 
these big foreign policy challenges.
    Ultimately, the reason we see more positives than negatives 
in this is that ultimately our foreign policy interests are 
very much in line with those of the European Union, whether it 
is stabilizing Afghanistan or responding to a crisis in Africa 
or keeping the peace in the Balkans, we really don't see major 
differences with our democratic like minded European allies. 
And therefore the more they get engaged in these things, as I 
noted there is a theoretical prospect for a difference or a 
tension, but in most cases we are actually likely to see the 
European Union pursuing very much the same interests as us.
    Mr. Gallegly. Mr. Chairman, just one last question because 
I see we have several members that want to jump in here, but 
maybe in short term you could give me what your assessment is 
and the effect that the Treaty might have on the bilateral 
relationships that we currently have with individual national 
capitals?
    Mr. Gordon. Those important bilateral relationships will 
continue to exist. Again, I don't think anybody believes that 
we are seeing a dramatic shift away from particular bilateral 
relationships toward an exclusive or even dominant relationship 
with the new EU institutions. I think this is a gradual 
process, and the relationship with Brussels or the new 
President of the Council or High Representatives will in no way 
replace these historic relations that we have with a number of 
key European partners. I would like to believe that they will 
complement those bilateral relationships and reinforce them 
with another place to turn, but I think in the near term at 
least there is not going to be a significant change in how we 
deal with some of our key partners.
    Mr. Gallegly. Thank you, Mr. Chairman, and thank you, Mr. 
Ambassador.
    Mr. Delahunt. Thank you, Mr. Gallegly.
    Mr. Tanner.
    Mr. Tanner. Thank you, Mr. Chairman. I actually asked for 
comment in my opening statement with regard to the interplay 
between NATO EU with respect to common defense matters, the 
EU's role may be in more of the civilian side of the war 
effort. So thank you, Mr. Chairman.
    Mr. Gordon. Thank you, Mr. Tanner. It is a longstanding 
issue, the relationship between the two organizations. And in 
the past the United States, including in the Clinton 
administration in which I served, was very concerned about 
potential for competition and duplication. And those concerns 
continue to exist, and I had mentioned that in my testimony, 
the last thing we need to do is duplicate institutions or 
structures or resources that are all too scarce.
    But we are confident that our interests are harmonized 
enough and the relations between the two organizations--which 
as pointed out significantly overlap, you know, 21 of the 
countries are in both--that we can avoid such unnecessary 
duplication and actually see benefits to ourselves in having 
the EU play a more prominent role. It is inevitable that the 
United States, when it comes to security challenges around the 
world, will think first about NATO. NATO is the one of these 
two organizations that we are in, and obviously we would like a 
seat at the table and we play a major role.
    It is also unlikely that if NATO is ready to act in a 
certain situation that our European allies won't go along with 
that. When the United States is ready to play a leadership or a 
major role, it is likely that Europeans who are in both 
organizations will want that to be the case. There may, 
however, be other situations where we choose not to play a 
leadership or any role at all where we should welcome the fact 
that the EU is ready to do so. And there have been a number of 
conflict intervention situations over the past decade or so 
where that has been the case and where the EU has in fact 
gotten involved, and that is something that we should welcome.
    Rather than worrying that somehow the EU is going to go off 
and use military force in a place that we wouldn't want it to, 
much, much more likely that they would go and help stabilize a 
situation that we might not have the available resources or 
political commitment to doing. I mean currently in Bosnia where 
NATO and we initially deployed significant military forces, 
NATO is out and the European Union is running the peace mission 
there, there have been interventions in Africa, and likely to 
be others where we should welcome the fact that the European 
Union is getting more involved in stabilization exercises.
    Finally, let me just note, the two organizations have 
different mandates and capabilities. The EU is more 
comprehensive than NATO and can bring a long political element, 
civilian element, foreign assistance element, that NATO 
historically at least has not played a major role in. So on 
balance, while we are always going to be cautious and focused 
on issues of duplication, on balance we think it is a positive 
thing.
    Mr. Tanner. May I ask, have you given any thought to the 
inherent difference, I would say not conflict but difference, 
between the mutual assurance clause and Article 5 of the NATO 
treaty, may I ask for comment?
    Mr. Gordon. Sure. As noted by you and others, NATO has an 
Article 5, it is our bedrock guarantee, we are absolutely 
committed to it and any member of NATO operates under the 
premise that attack on one is an attack on all. The European 
Union has moved toward further commitments to its mutual 
security, and it has long been understood among EU states that 
they are committed to each other's security but its mutual 
assistance clause is not as strong or binding as NATO's and 
obviously doesn't apply to us. We would naturally take very 
seriously any assault on the territorial integrity of a 
European member state, and all of the European member states 
would be committed to each other's security, but that is 
different from an Article 5 commitment which we would only 
undertake if a country joined NATO and the senate agreed to 
that.
    Mr. Delahunt. Thank you, Mr. Tanner.
    Mr. Sires?
    Mr. Sires. Thank you, Mr. Chairman. You know, Assistant 
Secretary, as I listen to question and comments, I get a sense 
that there is more layers now in the EU, and I get a sense that 
maybe working in concert may become a little more difficult, 
since every country still makes their own decision, let us say 
like Afghanistan, whether to send soldiers there or not or the 
amount. And there are 8,000 new jobs that come<greek-l>s deg. 
with this, sounds like a jobs bill to me. But how does it play 
with such questions as Turkey and the issue of Cyprus, you 
know, you have a new President and you have a High 
Representative, who is going to make the final decisions on 
this?
    Mr. Gordon. You ask lots of good questions to which the 
answers are not yet entirely available. As I have stressed, 
this is going to be a process. And certainly with the enactment 
of Lisbon the EU has not gone from one system to a dramatically 
different system, these things are going to evolve over time. 
For example the jobs you are referring to, I think you are 
referring to this new European External Action Service, which 
will gradually be put together over the coming years and the 
Europeans have a lot of work to do in figuring out exactly how 
that is going to work.
    I think many of those jobs will not be new jobs but there 
will be a gradual process of diminishing some national 
representations and bolstering the EU's own representation and 
tranforming it as well. At present the European Commission 
already has representations in just about every country in the 
world, and what will happen over time is that these Commission 
representations, which in the past were only dealing with 
issues that the Commission dealt with like trade or finance, 
will take on a broader role in actually representing the 
European Union, but this is a process that is just getting 
underway and I suspect it will be years before there are EU 
embassies in the United States and other countries.
    I don't think it creates more layers, the idea is that it 
will lead to fewer layers ultimately, but it does not change 
the reality that on a question like sending force, I mean the 
current practice is only a member state is going to decide 
whether its soldiers get sent abroad and that is not going to 
change with this. What we hope will change is that the European 
Union has a more coherent and consistent foreign affairs 
representation. The rotating presidency, which was the way they 
represented themselves in the past to us and to the rest of the 
world, had the deficiency of being rotating. Every 6 months 
there was a different leadership chairing EU meetings and 
speaking for the EU abroad.
    So just again to put it in our terms, the U.S.-EU summit, 
at each one would be a different set of leaders, and it is hard 
to build continuity and talk about the same issues. Now, for at 
least 2\1/2\ years, we will have the same interlocutor that we 
can talk to and an institutional memory, and there will be an 
opportunity to shape their views and work together on common 
challenges. So again, it is a process but we believe that over 
time this process will actually lead not to more layers but a 
more coherent partner.
    Mr. Sires. And the question of Turkey and Cyprus, how does 
this play with the new treaty?
    Mr. Gordon. It won't change the reality, I mean there are 
several Turkey Cyprus aspects to address. It won't change the 
reality that to take in a new member state, such as Turkey 
wants to be, all current member states will have to agree. So, 
you know, the new President of the Council or High 
Representative will not have the power to take in a new member, 
that would have to be done by consensus, and so in that sense 
it doesn't really change Turkey's accession process. It does 
mean that any new applicant would have to agree to be part of 
this new foreign policy, and that is something that applicants 
will have to consider for themselves.
    The other relevant Turkey Cyprus aspect is an unfortunate 
one, which is that two countries' ongoing dispute about NATO EU 
relations, and in response to some of the other questions I 
noted how important it is for NATO and the EU to work together, 
that cooperation is imperfect because of the Turkey Cyprus 
dispute. And Cyprus is a member of the EU but not NATO and 
Turkey is a member of NATO but not the EU, consistently block 
each other's participation in the organization that they are a 
member of. And that is unfortunate and we have been working to 
try to overcome that difference, but it stands in the way of 
the sort of EU NATO cooperation that we would like to see.
    Mr. Sires. Thank you very much.
    Mr. Delahunt. Thank you, Mr. Sires.
    Mr. McMahon?
    Mr. McMahon. Thank you, Mr. Chairman. As I said in my 
opening statement, I think we all believe that a stronger, more 
coherent, more effective EU can be borne out of the Lisbon 
Treaty, and it is an important thing with our ongoing 
partnership and friendship. However, as I said I am concerned 
about some protectionism that you seem to be hearing coming out 
of the EU Commission, especially in the area of financial 
services which concern me, I represent New York City, Staten 
Island, and Brooklyn in particular.
    And the alternate fund managers directive, which you know 
is legislation which places unjust regulations on EU managers 
raising funds outside the EU or marketing a non-EU fund within 
the EU as well, as with a U.S., Swiss, or other non-EU manager 
that is marketing a fund within the EU. And more importantly, 
and what is widely seen as a protectionist measure, non-EU 
managers such as those in New York must be established in a 
country with EU equivalent credential regulations and ongoing 
supervision can start marketing to EU only after 3 years of 
time. So that is something that would hamper the 
competitiveness of American financial industries. And so I am 
wondering if you can respond to questions about that particular 
policy and in the broader sense are we worried about a growing 
protectionism coming from the EU first as it has to do with 
that initiative but also in the broader sense.
    Mr. Gordon. Thank you for raising that. I am not familiar 
enough with the details of that particular directive to give 
you an answer, although I am happy to look into it. As a 
general comment I would say, obviously we are always on the 
lookout for protectionist measures because the U.S.-EU trade 
relationship is so important to us. I don't think that we have 
detected a protectionist move from the EU, and I certainly 
don't think Lisbon will push it in that direction.
    And given the economic crisis that we have gone through on 
both sides of the Atlantic in the past year, one might have 
feared worse. It is conceivable that both sides could have 
turned to protectionist measures as unemployment rose and 
economic difficulties also rose, but that hasn't really 
happened, and I think that leaders on both sides, I think if 
you look at the new team in place in Brussels and certainly is 
the case for the Obama administration understand the importance 
of free trade and open markets and globalization, and certainly 
in the United States-European context we believe that both 
sides benefit tremendously from keeping that open.
    Mr. McMahon. No, and I appreciate that, but just to belabor 
the point a little bit, if we were talking about, you know, 
agricultural products or manufacturing products, you know, the 
alarms would go off much more clearly because we would worry 
about getting into a traditional type of trade war, but the 
same could be true in the financial services industry as well 
if America takes retaliatory action. So would you look at that 
directive and then follow up with us? I will have my office 
contact you, if we could follow up on that I would appreciate 
it.
    Mr. Gordon. Absolutely.
    Mr. McMahon. Thank you. Thank you, Mr. Chairman.
    Mr. Delahunt. Thank you, Mr. McMahon.
    Mr. Costa?
    Mr. Costa. Yes, a couple questions. Mr. Assistant 
Secretary, we were talking about earlier in comments that were 
made about extending formal structure to the current relations 
now that the European Union is thinking of setting up an office 
here in Washington and whether or not we might reciprocate in 
kind in Brussels. Your portfolio obviously includes Europe and 
Eurasian affairs, is it the intention of the State Department 
or this administration to make any structural changes as it 
relates to in response to the Lisbon Treaty in terms of how we 
go forward with this new refined partnership?
    Mr. Gordon. It is an interesting question, they are 
changing their structures, do we need to change ours in 
response? There will obviously be changes in certain 
mechanisms, such as the U.S.-EU summit that I mentioned, there 
is going to be a different team on the other side and we need 
to think about the best way to carry on that tradition and work 
with those new institutions. We will have to work with the new 
European External Action Service, but again we have to wait and 
see what it looks like and how it is represented, and so I do 
think that will entail some changes in the way we engage but it 
is something that we are going to have to figure out over time 
as they figure out exactly what role that.
    Mr. Costa. So that will be a work in progress as well?
    Mr. Gordon. That will be a work in progress as well. 
Otherwise, you know, I will have, I mentioned, you know, as 
they set this up, assistant secretaries in the State Department 
should have a new counterpart in their structure and we will 
have to figure out how that works.
    Mr. Costa. Who they are and how they move forward.
    Mr. Gordon. Yes, and what their responsibilities are.
    Mr. Costa. In my opening comments I talked about, you know, 
looking back 20 years and looking forward 20 years, and none of 
us have a crystal ball obviously, but what is the 
administration's expectations as, and sometimes we overplay 
that expectation level so we all should be cautious about that, 
but as to what this new Lisbon Treaty may portend in the next 5 
years, the next 10 years, realizing that it is going through a 
transition. But on the positive side, what are your 
expectations and on the negative side or the down side, what do 
you think we should be concerned about in the next 5 and 10 
years?
    Mr. Gordon. Again, a good question, I think you are right 
to talk in that sort of a time table. When you look at the 
history of European integration, it tends to move very slowly 
and in fits and starts, sometimes two steps forward, one back.
    Mr. Costa. Such as the Lisbon Treaty.
    Mr. Gordon. The Lisbon Treaty took a lot longer than 
initially planned just to get ratified.
    Mr. Costa. A number of steps forward, backwards, laterally.
    Mr. Gordon. Exactly. And I would say, you know, expect 
more. I have had, you know, some people come up and say, oh now 
that is done. Well actually it is not done, it is just 
beginning. What is done is the ratification, but as I think my 
testimony has demonstrated, there are an awful lot of 
questions, and it is not just our questions, you know, ask the 
Europeans themselves, they have big questions about how this 
will work, and it will take time. And just as our own 
institutions or anybody's institutions, they can be implemented 
in different ways.
    Will the President of the Council and the High 
Representative be strong leaders who bring the EU along in a 
coherent manner or will they not have much of an impact on the 
member states? Depends in part on how successful they are in 
managing this. There is very much still to be determined. So by 
putting it in a longer term time horizon, just as----
    Mr. Costa. The practical positive expectations could be 
what in the next 5-10 years?
    Mr. Gordon. Could be a European Union, which again is our 
key partner on all of the global challenges we face and the 
place in the world with the most resources, economic and 
military, and democracies and the entity with which we really 
need to cooperate on Afghanistan, Iran, Pakistan, Middle East, 
climate change, the positive scenario could be, you know, 
within 5 years or whatever time table you want to put on it, 
representation of that partner that is more global thinking, 
that thinks globally, and that is able to act more coherently 
with fewer internal contradictions. In other words, really a 
partner for the United States so that when we face these 
challenges it is easier for us to talk to that interlocutor and 
reach agreement on how to move forward together and they put 
more behind the common effort and it is a more balanced 
transatlantic partnership. That is the positive outcome.
    Mr. Costa. And the down sides?
    Mr. Gordon. The down side, I mean there are other 
scenarios, one would be not much change at all where the new 
structure has come into place but in the end it is still 
divided, difficult to find consensus, still a useful partner 
but the new institutions don't bring about the more coherent, 
effective partner.
    Mr. Costa. The more streamlined decision making process, 
not greater efficiency, and the transparency we are looking 
for.
    Mr. Gordon. Right. And, you know, there is a theoretical 
negative scenario, but it really is unlikely, I mean some worry 
about a rival, that somehow if Europe is more united then we 
have a more difficult partner that we won't be able to 
influence. But as I have stressed, you know, given that their 
interests on all of these questions line up very significantly 
with ours, I think that is an unlikely prospect, there is more 
to be gained than lost.
    Mr. Costa. Thank you, Mr. Assistant Secretary. Thank you, 
Mr. Chairman.
    Mr. Delahunt. Yes, and we have been joined by the gentleman 
from Arkansas, Mr. Boozman. Mr. Boozman?
    Mr. Boozman. Thank you, Mr. Chairman. Just real quickly, I 
am a member of the NATO Parliament, Mr. Tanner is actually the 
President, Albio is also, but I guess my question is, I know 
there is many opportunities for Congress, Congressmen 
specifically to interact with our cohorts in Europe through 
various entities, can you talk a little bit about the 
importance of us participating in those kinds of things and 
being present, and as you have talked about there are so many 
things that are on the table right now, and again I would just 
like your opinion on that.
    Mr. Gordon. No, thank you for the opportunity to do that. 
As you mentioned, as others have mentioned, you have the 
Transatlantic Legislators Dialogue, you have the NATO 
Parliamentary Assembly, these are opportunities for the 
democratically elected representatives of the people on both 
sides of the Atlantic to talk about the challenges we face, and 
I think that is increasingly important, it is increasingly 
important as the European Parliament plays a greater role in 
Europe, and as we look to our European friends and allies to 
join us in dealing with these tremendous challenges. Again, 
because we are both democracies on both sides here, you can't 
do this without the involvement of legislators and citizens.
    And, you know, we have seen that before when our Government 
might have appealed to European governments to join us in some 
enterprise and then those governments go their people or their 
parliaments and the Parliament says, you know, we don't want to 
do that. Well, that is because we didn't manage to convince 
those legislators and people that we have common interests and 
we should be doing it together. And I think that is extremely 
useful and healthy. And, you know, frankly you face the same 
challenges, you know, you have skeptical populations who wonder 
why they should be dealing with Afghanistan or Iran or whatever 
it might be, and you can compare notes on the best way to 
approach what we think are really common interests.
    Mr. Boozman. Thank you, Mr. Chairman.
    Mr. Delahunt. Thank you.
    And last but not least, the chairman himself, Mr. Wexler.
    Mr. Wexler. I want to thank Chairman Delahunt for his very 
kind words and wish him the best; I know it will undoubtedly be 
a very successful tenure. I especially want to thank Mr. 
Gallegly for the 5 years, I believe, that I had the privilege 
of serving with him, as the ranking member and as the chairman, 
for the always dignified and respectful way in which he dealt 
with me and everyone else. It was a professional privilege to 
have the opportunity to work with him. I also want to thank the 
secretary for his friendship and cooperation over this 
relatively short period, and undoubtedly President Obama and 
Secretary Clinton I believe made a very effective choice as 
assistant secretary for your position. And I deeply want to 
thank all of the colleagues who were very kind to say things 
today and at other times.
    I would be remiss if I didn't take this chance just to ask 
you about Turkey given Prime Minister Erdogan's recent trip 
with Foreign Minister Davutoglu. For all the articles that have 
been written essentially suggesting that Turkey is turning 
eastward or Turkey is somehow minimizing its relationship with 
the West, I understand the basis of those articles, the basis 
of concerns, but to listen to the Prime Minister himself, to 
listen to Foreign Minister Davutoglu, it seems quite apparent 
to me that what Turkey is exercising is a regional policy, and 
a regional policy that more often than not coincides with the 
interests of the United States with some notable exceptions.
    And if anyone had suggested 5 years ago that Turkey would 
be in a major process of engagement with Armenia few of us 
would have believed it possible. If someone had suggested 5 
years ago that Turkey would entertain a democratization effort 
that provides needed freedoms to its Kurdish and other 
minorities, few of us would have thought it possible, 
understanding that all of these efforts will have bumps and 
grinds and obstacles. And even in the context of Syria and 
Iran, where I myself at times differ, it would seem to me that 
the benefit to America, the benefit to the West, of having 
Turkey deeply engaged with its neighbors will almost by 
definition always outweigh the detriment.
    Having said that, I would like to more importantly hear 
your conclusions or your impressions, given the extensive time 
that Prime Minister Erdogan was here and spent with the 
President and with others, in terms of the status of our 
relationship with Turkey, and as to the issue of Turkey turning 
one way or the other, if you would care to comment. Thank you.
    Mr. Gordon. Thank you, Congressman, both for your kind 
words and for asking that important question or giving me the 
opportunity to address it. I of course have seen the same 
articles and the same analysis of Turkey turning eastward, and 
you are right that they are playing a more active role in the 
region and see for themselves a very important role in the 
region, and frankly it is also true that on some of those 
issues we have expressed different views and the Prime Minister 
and President Obama had a chance to talk about some of those, 
including on the approach to Iran and Israel and Syria.
    That said, I believe it is a misimpression to somehow think 
that Turkey is turning its back on decades of cooperation with 
NATO and the United States and Europe and the West in pursuit 
of some Eastern agenda. Indeed, the very fact of having the 
Prime Minister and spend several hours engaging with the 
President on how to deal with these common challenges hardly is 
the sign of a country turning away from the United States, just 
as their continued interest in joining the European Union, 
which is not always welcomed in some parts of Europe, is hardly 
a sign of moving away from Europe.
    So yes it is true that the Turkish Government is very 
active in seeking to play a major role in the Middle East and 
elsewhere, but it is also true that they remain a close partner 
of ours with whom we cooperate on such a range of hugely 
important issues, regional ones but also more global ones--
Turkey has been a strong partner in Afghanistan where we have a 
special relationship and they have a special historical 
relationship, and we are doing good work together and they are 
contributing--but also on energy issues and other regional 
issues including normalization with Armenia. So we have a big 
agenda with Turkey, and it remains hugely important to this 
administration to continue to engage Turkey to make sure it 
remains the partner that it has been for a long time.
    Mr. Delahunt. Yes, thank you, Mr. Wexler, and let me echo 
your sentiments and the implications in that question, I think 
you know that I share your view on that particular issue.
    Mr. Assistant Secretary, it looks like that is it. I have 
one other just observation: The relationship between the EU and 
NATO. Oftentimes, we hear concerns about the EU supplanting 
NATO from some quarters here in the United States, which would 
obviously remove the U.S. from the decision making process, 
from the equation, if you will. And yet, I am sure it in some 
ways is befuddling, for lack of a better term, for the 
Europeans to hear a drumbeat of criticism of NATO and its role 
both in the recent past and currently in Afghanistan. It is 
almost like I think we here in the United States have to seek 
some clarity in terms of how we view and how we articulate our 
understanding of the relationship between NATO and any European 
military efforts. If you choose to comment, you can, and if 
not, you are off the hook.
    Mr. Gordon. I am happy to provide a brief comment. You 
know, in the past some have sought to clarify that relationship 
very specifically or almost in institutional or treaty 
language. And the reality is that, you know, it would be 
impossible to reach such an agreement and it is probably also 
not necessary. We need to the extent possible to reach some 
agreements on avoiding unnecessary duplication, but we are just 
not going to agree in advance on which organization does what 
in every circumstance.
    What I am confident of is that our interests are similar 
enough that this should be something we can work out and that 
when the United States wants to lead and play a major role, the 
Europeans will be quite happy to see that, and so I don't think 
we have to worry that there will be cases where we want to be 
involved or we want NATO to be involved and somehow the EU will 
insist that it be done in a different way. And therefore we 
should be pleased that the EU is building the capacity to do 
things in cases where we and NATO are not prepared to be 
involved.
    Mr. Delahunt. Let me just add again going back to my 
original observation about the need for presence, when I see 
the dichotomy or diverse views on the same issue, which 
criticism being allocated in a fairly equal way between EU's 
own efforts in terms of its security and then the criticism for 
NATO, I think that communication and that dialogue, because a 
lot of it comes from Congress, would be very positive and 
constructive in terms of, okay let us be clear about what we 
are talking about here.
    And I think it goes to, and I agree with your statement, I 
think it is unnecessary to have a treaty, but I think at the 
same time a full and ample discourse on those issues could go a 
long way to not muting justified criticism but making sure that 
the criticism is accurate and is stated with a full 
understanding of what the realities are. In any event, thank 
you for bearing with us, and you are excused, and thank you 
again.
    Mr. Delahunt. And now if we could have the next panel come 
up. And let me extend my thanks again for your patience. It has 
been several hours, and I understand that we are going to have 
votes around 4:00, which means I am going to be very brief in 
my introductions and then would ask you to see if we can 
conclude your opening statements and then come back for a Q&A, 
I presume not all the members will return so there will 
probably be a fewer number of us to have to deal with.
    So first let me introduce Dr. Karen Donfried, who is the 
executive vice president of the German Marshall Fund of the 
United States. Again, I am going to truncate a very long 
curriculum vitae to say that I have had an opportunity to deal 
with Dr. Donfried and I know she is an excellent witness, she 
is extremely conversant with these issues, and welcome. Next is 
Dr. Daniel Hamilton, who is the Richard von Weizsacker 
Professor at the Paul Nitze School of Advanced International 
Studies at Johns Hopkins. He is a noted author, I have had the 
pleasure of hearing his testimony previously, he is extremely 
knowledgeable, and I look forward to his testimony.
    And finally, Sally McNamara, who is a senior policy analyst 
in European affairs at the Heritage Foundation's Margaret 
Thatcher Center for Freedom. She was formerly the director of 
International Relations for the American Legislative Exchange 
Council. Before coming to the United States in 2004 she served 
as chief parliamentary aid to Roger Helmer, a member of the 
European Parliament in Brussels. Previous to that she acted as 
regional press officer for the British Conservative Party in 
the East Midlands of the UK. And she is a native of Nottingham, 
England. I love to say Nottingham, I was always enthralled as a 
youth by the Sheriff of Nottingham. Well thank you all for 
being here, and without further ado, please proceed with your 
statements. Let us begin with Dr. Donfried.

 STATEMENT OF KAREN DONFRIED, PH.D., EXECUTIVE VICE PRESIDENT, 
           GERMAN MARSHALL FUND OF THE UNITED STATES

    Ms. Donfried. Thank you very much. Mr. Chairman, I would 
like to begin by congratulating you on assuming the 
chairmanship of this important subcommittee, and thanking you 
for the opportunity to testify today. It is a real pleasure to 
participate with you and the other distinguished members of 
this subcommittee to talk about the future of transatlantic 
relations under this new Lisbon Treaty structure. I would like 
to ask that my written remarks be submitted to the record.
    Mr. Delahunt. Without objection.
    Ms. Donfried. I would like to highlight how the United 
States might constructively engage this post-Lisbon European 
Union. At its core, the Lisbon Treaty seeks to improve how a 
European Union of now 27 member states and 500 million citizens 
functions. The hope in this capital is that the European Union 
will now look beyond Europe and capitalize on more effective 
and more efficient decision making structures to help the 
United States meet the many global challenges that face us. 
What I would like to do is talk first about how Congress might 
engage this new EU and then focus on a couple of ideas for the 
Executive Branch.
    I wanted to start close to home for you and others by 
looking at the new legislative powers that the Lisbon Treaty 
provides for. If you look at the history of European 
integration, the European Parliament is the one EU institution 
whose power has consistently increased with each treaty 
revision, and that is no different here. And what we see is 
that the Parliament is expanding its ability to have an equal 
footing with the Council on most legislation. Parliament will 
also now have a decision making role on the entire budget of 
the European Union.
    What is interesting in the Lisbon Treaty is it not only 
increases the power of the European Parliament, it also 
increases the power of national parliaments, which will now 
have the opportunity to challenge a piece of European 
legislation if national parliaments deem it unnecessary. These 
changes were intended to make the European Union more 
democratic, as parliaments are in all systems the most 
democratic expression of public opinion. What does this mean 
for the U.S. Congress?
    As we know, and Congresswoman Berkley was here earlier, the 
Transatlantic Legislators Dialogue has been the main forum 
through which Members of the European Parliament and Members of 
the House of Representatives have interacted. There is, of 
course, a separate web of bilateral exchanges at the national 
level between U.S. Members and their European counterparts, and 
the German Marshall Fund even participates in some of those. 
Given those existing structures and knowing that time is at a 
premium for Members of Congress, how do you structure deeper 
relationships recognizing that you don't have a lot of time for 
that? We can't just add meetings.
    The suggestion that I wanted to make is that we target a 
limited number of legislators on both sides focused on 
discrete, substantive topics, so that you are engaging members 
of the European Parliament and members of the national 
parliaments around specific topics, creating an issue specific 
dialogue. It seems to me that if each parliamentarian came away 
from these dialogues feeling that they had gained something for 
their own legislative process back home, these meetings become 
``need to do,'' rather than just something that is ``nice to 
do.''
    And I think we have to admit that it is hard to engage 
American Members in Europe. We need to engage them on the 
topics, whether it is homeland security or immigration, on 
which they have a legislative role to play. I think the Europe 
Subcommittee is well poised to try to generate ideas for how 
you might deepen this dialogue. I did notice that former 
colleagues, I used to work at the Congressional Research 
Service, are here in the room and you might want to see if CRS 
wants to prepare a report that is generating some new ideas on 
how to deepen this transatlantic parliamentarian relationship 
under the new Lisbon Treaty.
    Now if we think about the Executive Branch and how it 
engages the EU. We just heard from Assistant Secretary Gordon 
that the Obama administration looks forward to an EU that will 
play a larger role on the global stage. My question is, how do 
we encourage that development? I am asking that question 
because we need to acknowledge that the Lisbon Treaty offers 
the European Union the promise of a political role in the world 
commensurate with its economic weight, but the Lisbon Treaty 
only lays the framework that would provide the EU with the 
capacity to act, it does not guarantee a willingness to act.
    We have to remember that the European Union remains an 
intergovernmental undertaking. The powers of the European Union 
can only grow to the extent that the member states surrender 
more of their national sovereignty to this unprecedented 
multinational enterprise. Today, foreign policy still remains 
in the hands of national leaders. Yes, we have President Van 
Rompuy, yes we have High Representative Ashton. It is 
interesting, some of the press around these appointments has 
complained that they are not political rock stars. The 
Economist went so far as to refer to the two of them as ``two 
mediocre mice.''
    I honestly think these critics are missing a fundamental 
point. Washington, and for that matter the world, will listen 
to Mr. Van Rompuy and Baroness Ashton if they genuinely speak 
for a united European Union. The Lisbon Treaty may solve the 
structural problem in providing the infrastructure to make 
possible a coherent voice for the EU, but only the member 
states can muster the requisite political will. To take just 
one example, will France and the United Kingdom be willing to 
give up their national seats on the United Nations Security 
Council some day in favor of a European Union seat? And the so-
called ``Big Three,'' the UK, France, and Germany, are the key 
drivers of foreign policy at the EU level.
    If we think about the United States, we are facing serious 
challenges on many fronts. The Obama administration may well 
not be picky about whether effective partnership with Europe 
comes through bilateral, NATO, or European Union channels, as 
long as it is forthcoming. That said, if the EU can prove 
itself to be an effective mechanism for catalyzing substantial 
European contributions to global challenges facing us, simply 
put, if the EU can show that it can deliver, then it would very 
quickly become a preferred partner for Washington.
    Now, how can the administration encourage that development 
if we think it is a positive one for U.S. interests? Certainly 
one way is how President Obama will engage and work with 
President Van Rompuy. Another is how Secretary Clinton will 
engage High Representative Ashton. Beyond that, let me make two 
admittedly modest but concrete suggestions.
    First, in the opening months of 2010, President Obama could 
make a visit to Brussels and engage the European Union and 
embrace publicly its post-Lisbon architecture. Such a visit 
could be a fitting and bipartisan bookend to the trip that then 
President Bush made to Brussels in February 2005.
    Then President Bush met with representatives of the 
Parliament, the Council, and the Commission to express U.S. 
support for the development of the European Union into a more 
effective strategic actor on what most believed, wrongly it 
would turn out, was the eve of the European Constitution being 
approved, which as we know then failed. Given the continued 
phenomenal popularity of Barack Obama across Europe, even a 
short stop in Brussels could be a powerful sign of both United 
States support and also of heightened U.S. expectations for 
this relationship.
    Second, I would encourage the Obama administration to 
engage in a full court press to encourage a substantial EU 
civilian surge in Afghanistan. Ideally the European Union could 
announce this stepped-up commitment at the international 
conference on Afghanistan that will take place in London on 
January 28th of next year. British Prime Minister Brown and 
German Chancellor Merkel, together with French President 
Sarkozy, pushed for this conference as a place to discuss plans 
for handing control of Afghanistan back to local authorities 
over time, as Afghan capabilities are strengthened.
    A key deliverable at this conference will be the concrete 
measures the international community will pledge to support 
Afghanistan in this decisive phase. This conference would be an 
ideal venue for the EU to step up to the plate and redouble its 
efforts, again for the EU to show that it can deliver on an 
issue of great importance to the transatlantic community. I 
think it would be a fitting way to mark with action the 
enhanced foreign policy role the Lisbon Treaty outlines with 
words.
    The European Union has been, by almost any measure, a huge 
success. Two key elements of a state's sovereignty are money 
and troops. The EU has already succeeded in creating a common 
currency, the euro. It may seem light years away from 
establishing a European army, and certainly the Lisbon Treaty 
does not do that. None of us can know today where this 
remarkable experiment will end. What we do know is that, as 
revolutionary as many of the EU's accomplishments may seem, the 
process of European integration is in fact an evolutionary one.
    The EU will continue to grow and change, sometimes 
gradually and sometimes in spurts, over time. We Americans have 
played a critical role in fostering that evolution. We need to 
decide how and to what extent we want to continue to do that in 
the 21st century. It is easy to criticize the EU's weaknesses 
and even to exploit them. The question is whether we want to 
help strengthen the union and if so how. I would argue the 
post-Lisbon architecture gives us new opportunities to engage 
and encourage a stronger partner on the other side of the 
Atlantic. Thank you so much for this opportunity to share my 
thoughts with you.
    [The prepared statement of Ms. Donfried 
follows:]<greek-l>Karen Donfried deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you, Dr. Donfried.
    And now we will go to Ms. McNamara.

    STATEMENT OF MS. SALLY MCNAMARA, SENIOR POLICY ANALYST, 
  EUROPEAN AFFAIRS, MARGARET THATCHER CENTER FOR FREEDOM, THE 
                      HERITAGE FOUNDATION

    Ms. McNamara. Mr. Chairman, Ranking Member Gallegly, and 
distinguished members of the committee, thank you very much for 
holding today's hearing on this very important issue. Mr. 
Chairman, with your agreement I would like to request that my 
prepared testimony be entered as my formal statement for the 
record and just offer brief remarks to you today.
    Mr. Delahunt. Without objection.
    Ms. McNamara. Thank you. Mr. Chairman, members of this 
distinguished committee, as legislators who uphold the 
democratic values of openness, honesty, transparency, and rule 
of law, it is important to note that the Lisbon Treaty has 
finally been ratified after 8 years without a shred of 
democratic legitimacy or public support. The appointment of two 
anonymous and underwhelming figures to the EU's top post, 
Herman Van Rompuy and Cathy Ashton, was described by the Times 
newspaper as a Byzantine Brussels stitch-up.
    This largely describes how much of Europe feels about the 
Lisbon Treaty, a treaty that takes Europe in a direction 
inimical to people's interests and inimical to the interests of 
the United States of America. On the face of it, it is easy to 
see why the U.S. would welcome the Lisbon Treaty. The EU argues 
that it finally has one telephone line to Europe and successive 
United States administrations, both Republican and Democrat, 
have called for Europe to shoulder a greater share of the 
world's security problems.
    However, there is nothing in the institutional 
restructuring of the EU that will mean greater resources and 
political will to do more in places like Afghanistan, the 
Middle East, or Iran, just to name a few security hot spots. 
The EU might tell you that the Lisbon Treaty now means that 
Europe will speak with one voice on external relations, however 
sovereignty cannot be traded for influence. As the EU has grown 
in size it has essentially lost punch, taking forward the 
lowest common denominator positions which often frustrate 
American leadership on the world stage.
    It is vital that the United States recognizes the value in 
dealing with its enduring allies on a bilateral level and 
appreciates the Lisbon Treaty's threat to these relationships. 
On issues of foreign affairs, defense, security, justice, and 
home affairs, including counterterrorism, bilateral relations 
work best for the United States. Replacing individual European 
allies with a single EU foreign minister means inevitably 
America's interests will lose out most in the discussions that 
really matter, or as Dr. Henry Kissinger says, when the United 
States deals with the nations of Europe individually it has the 
possibility of consulting at many levels and to have its views 
heard well before a decision is taken.
    In dealing with the European Union by contrast, the United 
States is excluded from the decision making process and 
interacts only after the event. Growing estrangement between 
America and Europe is being institutionally fostered. It is 
worth considering what has taken place to date as a forewarning 
of what is to come. The EU has consistently frustrated the 
prospect of tougher sanctions against Iran and has acted, in 
the words of Oskar Fischer, as a protective shield for Tehran 
against the United States.
    The EU rolled out the red carpet for brutal Zimbabwean 
dictator Robert Mugabe in 2007, officially suspending its own 
travel ban on him to welcome him to Lisbon. In Afghanistan, the 
EU has been nothing more than a bit part player with a police 
training mission criticized by the NATO Parliamentary Assembly 
as too small, underfunded, slow to deploy, inflexible, and 
geographically restricted. However, it is the EU's disastrous 
handling of the Russia-Georgia war that fully illustrates the 
EU's limitations as a regional power.
    Then EU President Nicolas Sarkozy took the reigns of 
leadership following Russia's illegal and immoral invasion in 
August 2008. Yet despite the failure of Sarkozy's cease fire 
and Russia's redrawing of Europe's borders by force, the EU 
abruptly and without warning to NATO returned to business as 
usual with Moscow. Coincidentally, at the height of the crisis 
in the south Caucasus, the EU signed a deal with Moscow to 
provide Russian helicopters for an under-resourced EU mission 
to Chad, and it was recently announced that France is $0.5-
billion Mistral class helicopter carrier to Russia.
    The Lisbon Treaty also reigns in its members from taking 
independent action on the world stage and potentially from 
standing alongside the United States where and when they choose 
to do so. The Lisbon Treaty poses the biggest threat to 
national sovereignty in Europe since the Second World War. It 
hands power to unelected, unaccountable bureaucrats far removed 
from member states. It removes Europe's policy commitment to 
free and undistorted competition and instead favors 
protectionism, which will likely see the continued persecution 
of successful American companies.
    It duplicates NATO's roles and functions and decouples 
America from Europe, killing the concept of indivisible 
security which has kept the peace in Europe for 60 years. The 
Lisbon Treaty will do huge damage to American interests in 
Europe, and contrary to any democratic tradition it is a self 
amending treaty which can aggrandize power not explicitly 
conferred on it by the treaties. As Lady Thatcher states in 
``State Craft,'' that such an unnecessary and irrational 
project as building a European super state was ever embarked 
upon will seem in future years to be perhaps the greatest folly 
of the modern era. Thank you very much, Mr. Chairman.
    [The prepared statement of Ms. McNamara 
follows:]<greek-l>Sally McNamara deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you, Ms. McNamara.
    Dr. Hamilton.

  STATEMENT OF DANIEL HAMILTON, PH.D., RICHARD VON WEIZSACKER 
 PROFESSOR AND DIRECTOR OF CENTER FOR TRANSATLANTIC RELATIONS, 
  THE PAUL H. NITZE SCHOOL OF ADVANCED INTERNATIONAL STUDIES, 
                    JOHNS HOPKINS UNIVERSITY

    Mr. Hamilton. Thank you, Mr. Chairman, and it is a pleasure 
to be here again before this committee. And let me again extend 
congratulations to you at the helm of this subcommittee. I have 
a prepared statement which I would like to submit and I will 
just summarize briefly.
    Mr. Delahunt. Without objection, thank you.
    Mr. Hamilton. The other witnesses have stressed 
particularly foreign policy issues, and in fairness, not to 
duplicate that same testimony, I think it is probably 
appropriate to identify a few other elements of Lisbon that I 
believe affect American citizens and American interests and 
perhaps have not quite gotten as much attention. And I think 
the reason for thinking about these things is a point that you 
made, Mr. Chairman, Mr. Gallegly made and others, that if you 
think about the relationship between the United States and 
Europe, the societies, the deep integration of our economies, 
we really have the most complete relationship we probably have 
with any countries in the world, and it is one that reaches so 
deeply into our domestic societies that one has to look not 
just at the foreign policy dimensions of what Europeans do or 
what we do, but how it affects really people.
    Our estimate, our latest estimate, we do an annual survey 
of the transatlantic economy, it is about to come out, is that 
this is a $5 trillion economy, employing up to 14 million 
people on both sides of the Atlantic. Europeans employ more 
Americans in the world than they do any other nationality, and 
American companies employ more Europeans than any others in the 
world. It makes a real difference in people's lives the way 
this relationship works. So the area I would suggest that 
Lisbon is probably going to have more of an immediate impact is 
actually not in foreign policy but actually in justice and home 
affairs.
    It was mentioned briefly, but if one looks at the 
provisions of the treaty, this is an area that will move faster 
I believe than building the External Action Service, and it 
puts freedom, justice, and home affairs, as it is discussed 
freedom, justice, and security in EU terms, also what we would 
call homeland security, at the center of EU priorities. It has 
the potential for giving us a partner that is more effective to 
dealing with human trafficking, crime issues, terrorism, 
building up European societal resilience to challenges that we 
face potentially with the United States.
    The Congress passed recently, ratified treaties that we 
have had with the EU now on mutual legal assistance and 
extradition, there is much work to be done in this area, 
discussions about legal agreements and data protection, on 
principles in combating terrorism, these all go centrally to 
issues of our domestic security and that of our major partners. 
So there are significant areas to develop here. One result of 
Lisbon in this area is a discussion of forming within the 
European Council a committee on internal security.
    This would be a new development, it would perhaps take on 
functions similar to the National Security Council, and it is 
something I think to watch because it could directly influence 
U.S. efforts. Another development which is in the Treaty is 
what is called a solidarity clause, and that is in the event of 
any natural or man-made disaster to civilian societies in 
Europe, each of the European EU members would come to each 
other's assistance. This has I think considerable ramifications 
for how the Europeans will organize their societal security, 
and given the fact that terrorism knows no bounds, could have 
implications for the United States.
    Mr. Tanner mentioned the questions about Article 5 of the 
NATO treaty, the North Atlantic Treaty, and as you know, over 
this coming year there is a debate going on in the NATO 
strategic concept about how we think about Article 5 today. Our 
obligation across the Atlantic is through NATO. It is defined 
in Article 5 of the North Atlantic Treaty as coming to each 
other's defense in the event of ``armed attack.'' And yet today 
we face a different realm of security challenge, and that is 
the networks that move people, goods, services, ideas across 
the Atlantic, the networks upon which free societies develop, 
are increasingly vulnerable.
    And we have yet to really in a systematic way address those 
challenges to our security, societal security. I believe while 
NATO can play a role there, and we have identified that in the 
report we issued earlier this year, it is at most a supporting 
player, and that if these are challenges to civil society, then 
certainly the main instruments of our civilian interaction, 
that is the U.S. and the EU, have to come together and think 
hard about how we protect the networks that frame our society.
    When the airplanes flew into the World Trade Center on 
September 11th and the Pentagon, The Economist noted this was 
not only an attack on freedom, it was an attack through 
freedom, using the very instruments of free societies to attack 
and disrupt those societies. We face the same challenges today, 
either through intimidation of cyber networks, of energy, or 
directly through terrorism. I would propose that we must 
consider now a supplementary clause, a pledge that we would 
make to each other through the U.S.-EU channel, and that is a 
transatlantic solidarity pledge.
    That is, in the event of a natural or man-made disaster 
that we would come to each other's assistance at the invitation 
of political authority and as deemed appropriate. It would not 
compete with the NATO clause of armed attack, it would actually 
supplement it and provide us a new bond across the Atlantic to 
deal with what I believe is a much more direct security 
challenge that we have yet to face. A second area in which 
there is considerable change is in the area of development 
assistance and humanitarian assistance.
    The Lisbon Treaty gives the EU a legal basis for control 
over this, the High Representative would have huge resources 
now at her disposal in this area, and together the United 
States and the European Union provide 80 percent of the world's 
development and humanitarian assistance. Certainly we can try 
to work to harmonize that better or be more effective together. 
At the last U.S.-EU summit the United States and the EU revived 
the high level dialogue on development, and I believe if you 
read the summit statement you see they moved ahead with some 
low hanging fruit, I would put it, but I believe there is much 
more that could be done to make, as was mentioned earlier, 
better use of our scarce resources, really devoting attention 
to build synergies in development assistance, humanitarian 
assistance, and to reach out to other donors.
    It is in fact odd that we together provide 80 or more 
percent of assistance in both of these areas, and yet there are 
many other potential donors that we should be reaching out to, 
both in the Islamic world and I think to rising powers that 
could play more of a role. Another area that I think is perhaps 
underestimated but could potentially have considerable 
repercussions as yet uncertain is that in the Lisbon Treaty 
there is a reference to what is called the Charter of 
Fundamental Rights. This was a charter approved some years ago, 
was tried to be incorporated into what was called the 
constitutional treaty that failed, and yet in Lisbon, there is 
a reference to the Charter and it accords it legal status, 
which means that now the Charter of Fundamental Rights has 
equivalent legal status throughout the European Union as well 
as these treaties.
    And before, those were unenforceable principles, but today 
they will become European law, and it is important to look at 
those principles and those rights now because they are 
considerable. They not only include most U.S. rights under the 
American Constitution, rights that we are familiar with, but a 
catalogue of social rights, and positive social rights that the 
U.S. to date does not adhere to, rights to education, health, 
environmental protection, social assistance, unjustified 
dismissal, for instance, and a new right to petition, which is 
actually much more in the American tradition but had not 
existed in Europe before that, as 1 million European citizens 
can now petition their legislators to address issues which they 
had not before.
    I think it is uncertain what this catalogue of rights will 
mean, but it will mean that European Court of Justice will 
start to interpret this type of legal catalogue similar in ways 
to what the U.S. Supreme Court does now for the United States, 
and yet it is a whole other body of rights for which we have 
not experience, it will affect American citizens living in 
Europe, it will affect those American companies operating in 
Europe, and I think it is worth examining a bit further than 
seems to have been the case.
    Another element which has already been mentioned, I will 
only mention briefly then, is the growing role of the European 
Parliament. This has been stressed but I think it is important 
to look at specifically what is happening, and that is that 
this co-decision right, so called co-decision right, and 
budgetary authority in a whole range of new areas, including 
trade, Mr. Gallegly asked Assistant Secretary Gordon whether 
there would be an impact on trade.
    Actually I think Lisbon doesn't change the trade piece on 
the executive side but it does on the legislative side. The 
European Parliament has co-decision, has to give approval now 
on many elements of trade as well as justice and home affairs, 
budgetary matters, agriculture, agriculture was mentioned 
before, transportation issues. It now has to agree to a whole 
range of international agreements, when the EU enters 
international agreements under these provisions it has to have 
the European Parliament on board.
    This makes the European Parliament essentially the only 
Parliament in Europe with powers approximating those of the 
U.S. Congress, and I think distinguishes now the Parliament 
from national parliaments in many different ways, even though 
national parliaments also have a new role. So back to the point 
that has been the theme of this hearing in a way is, if we are 
not appreciating the role of each other's legislatures, this 
will now become even more significant with these changes.
    And so I have submitted to Congresswoman Berkley and to the 
European members of the Transatlantic Legislators Dialogue a 
report we have produced recently suggesting very specifically a 
range of proposals of how the U.S. Congress, European 
Parliament, and national parliaments could have a more 
effective dialogue, and not only dialogue but engagement. I was 
pleased to see that those principles, those recommendations 
that I had sent her, were endorsed last week by the 
Transatlantic Legislators Dialogue.
    I think there are a couple elements that are worth bearing 
in mind. One is that the Transatlantic Legislators Dialogue 
only involve members of the House, there are not members of the 
Senate involved. And likewise, on the European side only 
members of the European Parliament, even though national 
parliaments also under Lisbon now have more of a role. Our 
proposal is in fact to include members of the U.S. Senate in 
this dialogue, that in the House that the members of the 
Transatlantic Legislators Dialogue be made speaker appointments 
so they have a formal role within the House structure, and that 
on the European side there is another body within the EU called 
COSAC which is a grouping of the European Affairs Committee 
chairs in the national parliaments.
    They will now play more of a role and yet they are not part 
of the dialogue. And as we have said, individual member states 
of the EU have to go along with what is going on here, they 
have to implement much of this legislation, and to exclude 
national parliamentary members from a U.S.-EU dialogue I think 
misses some of what the dynamic will be. We have also suggested 
that the Congress should in fact open an office in Brussels, 
and the reason is not just because of Lisbon but my first 
point, which is the deep nature of our interactions across the 
Atlantic.
    Actions by the U.S. Congress deeply affect European 
societies and European economies. Actions now by the European 
Parliament and many European parliamentary authorities deeply 
affect the way Americans live today, they reach deep into our 
societies. There is more, you know, United States-European 
investment in any of the states that you represent, any single 
one, for instance in California or Massachusetts, more 
investment in the state of Massachusetts than all of U.S. 
investment in China and Japan put together. And those create 
jobs, and those deeply affect our communities.
    And so understanding the impact of our legislation now I 
think becomes critical, and it should start first with this 
type of inter-crash across the Atlantic, because that is where 
globalization is actually happening quicker than other areas in 
ways that affect our citizens. Other things that could happen 
besides such a larger step is a joint consultative committee on 
the extraterritorial application of our respective legislation, 
simply an early warning system as members consider any 
legislation that might have this extra reach or the same for 
European parliamentarians that we are at least notified about 
this, because as you know, in recent years many of our 
frictions have come from the impact of these extraterritorial 
applications.
    We recommend that the members of the Transatlantic 
Legislators Dialogue or Members of Congress and the Parliament 
be full members of the Transatlantic Economic Council, of the 
new Transatlantic Energy Council which has just been created, 
and along the lines of what I proposed about the solidarity 
clause and justice and home affairs, we propose the creation of 
a Council of Resilience, a Resilience Council across the 
Atlantic to deal with these issues, and clearly members of 
parliaments and the Congress should be fully part of those.
    So a whole range of areas, very specific ones, that we have 
submitted, I have it as an appendix in my testimony, which I 
would urge that the Congress give some due consideration to. In 
result, Lisbon I think together with a whole host of other 
issues that we are facing around the world today, we have to 
make this relationship more strategic. This is an important 
relationship with the European Union, but it is not strategic, 
and by strategic I mean a fluid, interactive way to interact 
with each other to confront the challenges we face and to look 
at the tools we have at our disposal, whether they be NATO, the 
EU, or bilateral relationships.
    That is not the relationship we have yet, particularly with 
the EU. NATO is indispensable but it is insufficient to the 
broader range of challenges we are facing, it does not have the 
full toolbox, and only by supplementing our NATO agenda and 
expanding it with the European Union do I believe we can really 
adequately address the kinds of challenges we are facing, not 
only very far away in Afghanistan or the Middle East, but 
actually right here at home when we deal with the fundamental 
issues about people's livelihoods, about their jobs, their 
prosperity, and their freedom. I believe those are the kinds of 
specific issues we now must look at. Thank you.
    [The prepared statement of Mr. Hamilton 
follows:]<greek-l>Daniel Hamilton deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you, Dr. Hamilton. And I know my staff 
has a copy of the proposal you have put forward, and I want to 
state that I find that interesting and I do really think the 
order of magnitude of the engagement has to be ratcheted up 
substantially, and it does come back to this Parliament to 
Parliament, particularly as you indicate, the enhanced role of 
Parliament almost becoming more of a counterpart to our own 
institution here. Your suggestion about the Senate, however, is 
problematic.
    Mr. Hamilton. I am very sorry about that.
    Mr. Delahunt. Yes. I am going to go first to the ranking 
member, I will save my questions for last, and then I will 
start and I will try to be the clean up hitter. Elton?
    Mr. Gallegly. Thank you very much, Mr. Chairman. I will 
stay away from the Senate for a few minutes, we will have to 
deal with them another time. Ms. McNamara, thank you very much 
for your statement along with the other witnesses at the desk, 
but I would like to get your assessment of what you believe the 
EU could do to improve the perception of what has been referred 
to as the legitimacy concern among many of its citizens?
    Ms. McNamara. Well it could start by obeying its own rules. 
When the Lisbon Treaty was first constructed it was called the 
European Constitution. It was rejected in two free and fair 
referenda in France and Holland, and the EU went away, made 
some very minor cosmetic changes and changed the name of it and 
said, the only thing we need to do now is not have referenda. 
This is completely illegitimate. You can't just keep going back 
and asking for the right answer.
    Under the Lisbon Treaty a rejection by one was meant to be 
a rejection for all. Ireland rejected it in a referenda, and 
perhaps I have a nice passion for Ireland because my father is 
Irish, but I don't like bullying. Ireland was badly bullied by 
the EU into saying yes. President Sarkozy preceded a visit by 
calling them bloody fools. I don't think I have ever seen 
diplomacy on this level. So I think the EU should start by 
obeying its own rules, quite frankly.
    Mr. Gallegly. Dr. Hamilton, do you want to touch that one?
    Mr. Hamilton. Well clearly as Dr. McNamara said, the 
process leading to this treaty was fraught with problems, and I 
agree with her that there were issues there involved. But I 
think democracy is an evolving process, and so the previous 
treaty, the constitutional treaty, was rejected, there were a 
few other elements that were taken out of it and amended, it 
was submitted again, and in other referenda and in this process 
of ratification it was approved by all member states and by 
these other additional referenda. So there was a democratic 
process there, it was simply an evolving one, elements that 
didn't work were revisited. So we can look at it from here I 
guess and evaluate if it meets our standards, it seemed to meet 
the standards of the people of Europe and the EU, and now I 
think our question is how do we deal with it. As I said, I 
think there are elements pro and con maybe for American 
interests here.
    Mr. Gallegly. But more specifically, the perception, what 
more definitively can be done to improve on that?
    Mr. Hamilton. Well I am happy to give advice to my European 
colleagues of how they can improve their democracies, but as I 
said there is one element in the Treaty about this right to 
petition which does give some authority to citizens. How it 
evolves, as Assistant Secretary Gordon said, will take time, 
but it is an innovation that didn't exist there before. As we 
said, the national parliaments are also given a role now, an 
important principle of the European Union sometimes advanced in 
the breach is that of what is called subsidiarity, that is the 
basic principle that decisions within the EU should be taken at 
the level most close to the citizen.
    That doesn't always work, and there was no procedure for 
trying to assure that in the past. What Lisbon does is now give 
national parliaments two measures in which they could flag 
their objections to proposed legislation that is at an EU level 
when they believe it should either be at a national or even 
local level. And so there is a procedure now, again, will be 
tested, that would allow any national Parliament to flag 
concern about this type of legislation. How that will 
development I don't know, but I think that was an effort to try 
to address some of this question of legitimacy of the 
institutions.
    Mr. Gallegly. Dr. Hamilton, I posed a question to 
Ambassador Gordon, and I would like to get your perception or 
assessment. Do you see a more coherent EU as being problematic 
for U.S. foreign policy as it relates to future commitments of 
troops to different parts of the world?
    Mr. Hamilton. As Assistant Secretary Gordon said, it is 
very hard to say that in advance because much of it is case by 
case. I think the basic realization that is important is that 
we are talking about the same set of forces across the 
Atlantic, 21 of the countries are in the same institutions NATO 
or the EU. There is not a creation of a separate army here or 
any other elements of defense. Defense is not in the Lisbon 
Treaty, and so it is still the prerogative of national 
authorities. The question is how do we, as a united set of 
nations, try to aggregate the potential we have together and 
deploy it to deal with the security challenges we face.
    We have a block between EU and NATO, part of it is related 
to the Turkey Cyprus issues that we discussed, but there are 
elements that we could explore that I think get around that or 
address issues we have to face right now. For instance, a more 
coherent Europe in the, as I mentioned, the internal security 
world is in American interests. In fact after September 11th it 
was the United States frankly that pushed the Europeans to 
create what is now a European arrest warrant and what is called 
Eurojust, an area of justice and home affairs.
    That debate had been going on for years inconclusively 
until the United States after September 11th says, we need this 
coherent Europe because we are directly threatened and a weaker 
Europe does not allow us to deal with that. It was the Bush 
administration that pushed that, and it was successful, and 
there are some treaties also negotiated during the Bush 
administration that I mentioned that have advanced that. So we 
clearly in that area have interests in coherent Europe.
    The other area I think which is worth exploring, we have 
submitted some recommendation, is not just in the purely 
military area but in civil reconstruction and stabilization. 
When we send our troops to places around the world they do 
their business, but usually stability is not ensured by the 
military alone. We see that in Afghanistan today. And so the EU 
is actually the framework in which the civilian deployments, as 
Dr. Donfried mentioned, are where that resides. The United 
States is trying to build up in the State Department this 
civilian response corps.
    The idea is to build and to be able to deploy rapidly 
civilian authorities and experts to deal with these kinds of 
civilian crises. There is a tremendous interest in the State 
Department in working with the EU in this area of civilian to 
civilian cooperation, where a more coherent EU capability would 
certainly be in U.S. interests. We are just building in fact 
our capability, the EU already has eight missions underway 
around the world in this area where they deploy civilians, they 
have 3,000 or more people on the ground in other countries 
doing things either with the United States or instead of the 
United States because it is relieving some of the burden.
    This is not an area we have developed very well, it is an 
ad hoc set of arrangements. It could be something that could be 
developed much further and I think in fact relieve NATO from 
some of the efforts it is having to do. Instead of sending our 
troops to do these kinds of tasks for which they are not 
trained, it could be a supplement. As I say, I think many of 
these areas are supplementary, not competitive, if we would 
manage it right, with what we do within the Alliance itself.
    Mr. Gallegly. Thank you, Dr. Hamilton. Mr. Chairman, if I 
might just have one final quick question, and the same one 
would be posed to Ms. McNamara, follow up to Dr. Hamilton's 
statement?
    Ms. McNamara. I slightly have a different perspective. When 
it comes to defense there are three areas in the Lisbon Treaty 
where qualified majority voting will take place now, so it is 
not all exclusively in the unanimity voting category. One of 
those areas was the appointment of the foreign minister, the 
High Representative Cathy Ashton. The Poles suggested when a 
suitable candidate couldn't be found maybe they should do 
interviews to try and find the best person for the job, and 
they were told to shut up, go away, we will find someone 
tonight. You know, a revolutionary concept, try and find the 
best person for the job.
    Under Article 28 of the Lisbon Treaty there is now the 
legal basis for an EU army. This inevitably will lead to 
duplication. We already have a certain amount of duplication, 
we have a European Defense Agency, I believe in 
interoperability, but we should be using NATO for that, the 
Allied Command Transformation. The EU has its own operational 
headquarters when it was offered to use NATO's shape. And the 
EU now wants to create a rapid reaction force of 60,000 men. 
Now this would be great if there 60,000 men out there to help 
out with European security problems, but as we have seen in 
Afghanistan, Europe doesn't have 60,000 men that it can deploy 
on a moment's notice, so I think this definitely does pose a 
challenge to missions that America wants to undertake in the 
future.
    In terms of where the EU can help, I agree with both of my 
fellow panelists here that the EU could do civilian things. 
When Sarkozy was challenged, why doesn't the EU become a 
civilian complement to NATO since you like doing peacekeeping 
missions, since this is the sort of thing that the EU is made 
up for? He outright said, absolutely not, the EU will be a 
military power too.
    Mr. Gallegly. Thank you very much, Ms. McNamara. Thank you, 
Mr. Chairman.
    Mr. Delahunt. Thank you, Elton.
    Mr. McMahon?
    Mr. McMahon. Thank you, Mr. Chairman. Dr. Donfried, I want 
to thank you again for what the German Marshall Fund has done 
through the years in forcing transatlantic relations and 
keeping them strong. In your testimony you recommend for the 
Obama administration to seek a civilian surge, if you will, for 
Afghanistan, and then you make reference in footnote number 9 
in your testimony to an article that you had co-written. Could 
you elaborate a little bit for the committee how you envision 
that?
    Ms. Donfried. Absolutely, and in a sense this is connected 
to the conversation that we were just having as well, which is 
how can the EU best contribute to the challenges that we face? 
I would argue that it is on the civilian side much more than 
the military side, and I think the test for the EU is, if it 
can produce a result that is greater than the lowest common 
denominator, if it can produce the result that is not just the 
sum of the individual parts. There are 27 member states in the 
EU, and certainly the United States can approach each one 
bilaterally and say, we need help with Afghanistan, what can 
you do?
    If instead Secretary Clinton could go to High 
Representative Ashton and say, you do this for us, you rally EU 
resources for Afghanistan, that would be hugely beneficial. 
Now, you can look at the glass as half full or half empty and 
you can say Europe hasn't made a huge contribution to 
Afghanistan, or you can say $1 billion a year for Afghanistan 
is helpful to what the United States is trying to do. Could the 
Europeans do more, would we like them to do more? Absolutely. 
Let us try to figure out the right mechanism for doing it.
    I was struck when Secretary Clinton was at the NATO foreign 
ministers meeting in early December, Assistant Secretary Gordon 
referenced that in his testimony, and NATO put forward 7,000 
additional troops for Afghanistan. Interestingly, Germany and 
France were not willing at that point to step up their military 
commitment to Afghanistan, saying they wanted to wait for this 
international conference on Afghanistan in late January. So we 
have two of the big member states already having given 
incredible significance to this conference in late January, and 
that is why my hope is that if we encourage not only those two 
member states but the EU as the EU to step up and say, in the 
wake of this renewed commitment that the Obama administration 
has made to Afghanistan, we too want to be there on the 
civilian side as a key partner. So maybe that is a hope, maybe 
it is an aspiration, but I do think it is an area where we 
should be pushing.
    If I could just make one comment on the democracy point 
that Congressman Gallegly raised, because I don't want to leave 
the impression that the EU is an undemocratic institution. If 
we think about the Council, the Parliament, the Commission, the 
Council represents the member states and all of those 
individuals are directly elected, the heads of state. If we 
think about the Parliament, those are members that are directly 
elected. And you have the Commission, commissioners are 
proposed by the member states and then their selection has to 
be approved by the Parliament.
    Beyond the fact that the Parliament's powers were increased 
and the role of the national parliaments was increased, with 
Lisbon there are democratic controls that exist. We should be 
careful to distinguish between direct democracy and 
representative democracy. Referenda represent direct democracy. 
We tend not to have those in the U.S. We have a system of 
representative democracy. You all are elected by your 
constituents and if they don't like what you do here, then you 
are not reelected 2 years later.
    Mr. Delahunt. Please, Doctor.
    Ms. Donfried. That would not happen in your case, I am 
sure. But my point is that in this country we feel 
representative democracy is a reasonable way to check the 
legitimacy of action. So the referendum isn't necessarily the 
only instrument of democracy and in fact may not be the favored 
one unless you have a system of direct democracy. So I just 
want to suggest that representative democracy is alive and well 
in Europe and also is reflected in the way the European Union 
is structured.
    Mr. McMahon. Thank you, Dr. Donfried. And now, Ms. 
McNamara, I got the sense from your testimony and what you said 
in follow up is that you are really not a big fan of this 
Lisbon Treaty, is that fair to say?
    Ms. McNamara. That is a fair assessment, sir.
    Mr. McMahon. And do you have the same feeling toward the EU 
itself, its existence, do you think it is also the height of 
folly?
    Ms. McNamara. If the EU were a collection of member states 
where we all get along and it was an intergovernmental alliance 
I think it would be a jolly good thing. I think it would be 
silly to say that we shouldn't get on with our neighbors. 
However, good fences make good neighbors, not supranational 
treaties.
    Mr. McMahon. The thing is though, I guess----
    Mr. Delahunt. Would the gentleman yield for a moment?
    Mr. McMahon. Certainly.
    Mr. Delahunt. I think there is a certain philosophical 
view, is it fair to say, and you quote Margaret Thatcher, that 
she would not be a fan of a United States of Europe for 
example?
    Ms. McNamara. No one is really a fan of the United States 
of Europe, history is against it. If you look at the European 
Parliament as well, turnout for the European Parliamentary 
elections was 43 percent. If you had a 43 percent turnout for 
your Presidential elections you would think it was a crisis.
    Mr. Delahunt. Well, please, you are getting on very thin 
ice here because we have had some elections recently that we 
are happy to get 20 percent. I find it interesting that, you 
know, you quote Margaret Thatcher, and I didn't realize that 
she and another very popular conservative prime minister had 
such a disagreement, because back in 1946 at Zurich it was 
Winston Churchill who said, the time has arrived for a United 
States of Europe, given the lessons learned from World War II, 
and he certainly wasn't submitting it as a purely economic 
relationship with neighbors. It was clear if one reads the 
speech in full that he was talking about engagement in a very 
real way in terms of a political relationship that would evolve 
over time. But I thank the gentleman for yielding, and I yield 
back.
    Mr. McMahon. Thank you, Mr. Chairman, and I had the same.
    Mr. Delahunt. You can see me afterward, Ms. McNamara.
    Ms. McNamara. I would love to get into a conversation about 
Winston Churchill and Margaret Thatcher.
    Mr. Delahunt. We will have a jolly good time.
    Ms. McNamara. Just to quickly say, I think Churchill would 
turn in his grave if he ever thought that his words were used 
to subsume Britain's sovereignty in a United States of Europe. 
He said famously he wasn't going to fight the Second World War 
to be subservient to the Germans.
    Mr. Delahunt. Well, he also said this in that same speech, 
the structure of the United States of Europe will be such as to 
make the material strength of a single state less important.
    Ms. McNamara. I would love to have this debate further, but 
he also says, you know, we will trade with you, we will be 
partners with you, but by God we will never be governed by you.
    Mr. Delahunt. Well, we can have it, I just can't take the 
time from Mr. McMahon.
    Mr. McMahon. Of course, thank you, Mr. Chairman, and 
actually I had the same quote from Winston Churchill here. No, 
I am kidding.
    Mr. Delahunt. Well I know you do your homework, Mr. 
McMahon.
    Mr. McMahon. Thank you, sir, and I appreciate you following 
up on those points that I think is well taken and certainly it 
is a debate to have further because I think we, and you should 
know, that we in America certainly do not want to go back to 
those days when every European country had that fence up around 
it and it meant two world wars and continued conflicts in the 
Balkans and hundreds of thousands of lives, millions in Europe 
and hundreds of thousands of Americans as well. So there has to 
be I think some steps in the right direction, I guess you think 
the Lisbon Treaty goes too far. Do you envision an EU that 
makes sense to you in your philosophical parameters?
    Ms. McNamara. I think the EU makes far better sense as an 
economic entity than as a political entity, although I believe 
that the EU now is in danger of killing the goose that laid the 
golden egg. In the EU we have regulations now about the 
curvature of bananas, about what kind of light bulbs you can 
buy. With that amount of overregulation, which is also being 
applied to American companies, and we saw how Microsoft was 
terribly persecuted for creating a very successful product, I 
think the EU is going in the wrong direction.
    The Lisbon Treaty takes out for the first time the EU's 
commitment to undistorted competition. Overwhelmingly we are 
going down a protectionist direction. President Sarkozy has 
convened a meeting of 22 EU member states, not the United 
Kingdom and those who are in favor of reforming, in order to 
protect the common agricultural policy. Now, I am not here to 
defend American agricultural subsidies, I know you guys have 
some of your own, however, Europe's agricultural subsidies are 
far higher and they kill more Africans every year than they 
should.
    Mr. Delahunt. Ms. McNamara, I am just going to have to cut 
you off because I want these other members to have an 
opportunity. So let me go to Mr. Boozman. The thing is we are 
having votes, so I want to give everybody a chance and not ask 
the three of you to linger any longer, you have been remarkably 
patient.
    Mr. Boozman. Well I really don't have a question, but in 
entering into the discussion, I think that the EU has the same 
problem somewhat we as Americans, if we entered into a North 
American, you know, pact and ceded sovereignty to Mexico and 
Canada, in my district I would have major problems explaining 
with that and it would be a huge problem. And so that is 
something that I would be very much against, I get a lot of 
mail, you know, about things like that. So these are difficult 
problems, they really are, and I guess the real balancing act 
is trying to figure out, you know, how your populations are 
happy with the final product that you come up with. So like I 
say, it takes the wisdom of Solomon.
    Mr. Delahunt. Thank you, Congressman Boozman.
    Mr. Scott.
    Mr. Scott. Thank you so much. Congressman Scott from 
Georgia. First of all, Ms. McNamara, what I get you saying is 
that the military component, this joint defense, is the major 
cog in the wheel that brings about your major level of 
discomfort. Let me ask each of you, do you see this Lisbon 
Treaty making now the European Union a threat to the United 
States because of that? I have a number of questions, so if you 
could be real quick?
    Ms. McNamara. If I can go first, to answer quickly, yes I 
think the EU, the idea for an EU common foreign policy came out 
of this whole idea that we need to counter balance the United 
States of America, it was the French Defense Minister who said 
America is a hyper-puissance, is a hyper-power, and we need to 
find a way and it is only the EU that can counter balance that. 
I could bore you to death with about 100 quotes from European 
leaders who have said similar things, but I won't do so on the 
basis of time.
    Mr. Scott. Let me follow that up with, do you see the EU 
being, there is some validity to your statement, because one 
has to question whether or not the EU with a military component 
serves as a confrontational conflict within NATO who has a 
military component, but also within the 23 nations themselves 
who each have their own military component, I mean, which takes 
precedence over which? Then on the other side though there is 
the argument that a military component being added to the 
European Union could very well, if used properly and 
strategically, add to the effort for global security, 
particularly in an area that we have not touched upon but is a 
major growing threat, and that is of piracy. And so I am 
wondering if each of you might comment very briefly on the pros 
and cons of this to kind of get an opinion of what do we have 
to gain from EU getting a military component and what do we 
have to fear?
    Mr. Delahunt. If the gentleman would yield for a moment, I 
just would make the note that in fact, in terms of the 
antipiracy effort that is ongoing in so called hot spots, there 
is an EU presence and then there is a NATO presence, which I 
think there is compatibility and there seems to be 
coordination, even with nations such as Iran with whom we have 
a frosty relationship.
    Mr. Scott. Mr. Chairman, let me tell you what I am really 
getting at here.
    Mr. Delahunt. Sure.
    Mr. Scott. The big problem with the piracy situation is 
that we have no mechanism to get in and do what is essential to 
bring about some resolve to it, which is to provide a way to 
give some stability to that fledgling government, if it can be 
called that, in Somalia.
    Mr. Delahunt. Right.
    Mr. Scott. And with al-Qaeda and terrorists and al-Shebaab 
building up going against that force, and that becoming again 
another threshold of terrorists in that Horn of Africa region, 
several of us in the NATO meetings examined that and it is a 
very, very topical issue within NATO and how we can respond to 
that. But let me get to a couple other questions, I want to 
know about the future enlargement, your opinions on the future 
enlargement of the European Union.
    One critical point is that of Turkey, will the Lisbon 
Treaty give any movement one way or another to Turkey's request 
to become a part of the European Union, and do you see a 
problem with that, and isn't it a good counter for the movement 
by some in the European Union do not want Turkey because of the 
Muslim culture, but that is also checkmated because Turkey has 
a very, very significant European and Christian foundation? So 
I am wondering will we see more positive movement of them 
bringing Turkey into the European Union as a result of this 
Lisbon Treaty?
    Ms. McNamara. It is my expert opinion that Turkey will 
never be a member of the European Union. I believe that the 
<greek-l>are  deg.forces hostile to its membership are too 
large to make it happen. I think you saw President Obama, who 
is wildly popular, he went over to Europe and to Turkey and 
advocated for Turkey's membership and he got incredible 
pushback on that. The main problem here which I see is that the 
EU is not a good faith actor in negotiating with Turkey, it is 
bringing Turkey along saying, you have got to fulfill the 
acquis communataire, you have got to do X, Y, and Z, but 
ultimately I don't think politically it will ever happen 
because as long as France and Germany and Austria don't want it 
to happen I don't think it will happen. The Lisbon Treaty I 
think will allow Croatia to get in and some of the less 
controversial accession countries, but I cannot see a situation 
where France is going to allow Turkey to accede.
    Mr. Scott. Do you agree, Dr. Donfried?
    Ms. Donfried. On the question of Turkey and the EU, we are 
engaged in a negotiation process that will last for the next 
10-15 years. There are 40,000 pages of EU legislation that 
Turkey has to assume. And my fervent hope would be that the 
Austrias and Frances of Europe would not talk about Turkish 
membership and whether they want it or not because it is not 
going to happen in Sarkozy's term in office. And so I would 
prefer to say, let us have the negotiating process, wherever it 
ends, I think everyone agrees it is a good thing for Turkey to 
be looking west and coming closer to western institutions. So 
my hope would be that you could have this process of 
negotiation without prejudice to what the outcome is, because 
in 15 years it will be a different Turkey and it will be a 
different EU, so that is what I would say on that.
    On your point about an EU military role, we have experience 
in this, the EU is engaged now in multiple military operations, 
and, I think for the most part, it has been beneficial to the 
United States, whether it was NATO handing over the military 
role in Bosnia to the EU, whether it is the EU piracy operation 
Atlanta that we are talking about off the Horn of Africa, that 
coordination has worked quite well. And the EU is not something 
out there, the EU is a creation of its member states. Why? Not 
because they want to create some multilateral nightmare, but 
because these countries of Europe realize they are losing 
national power.
    The British Foreign Secretary in October gave a compelling 
speech where he said the choice for Europe is simple, get our 
act together and make the EU a leader on the world stage or 
become spectators in a G-2 world shaped by the United States 
and China. The member states want to use the EU to aggrandize 
their power, and in all of the cases I have seen this has been 
good for the U.S. The EU having more power has meant that the 
EU can play a greater role in the world. Their interests, in 99 
percent of the cases, are compatible with ours. So my concern 
is not too much Europe, it is too little Europe.
    Mr. Scott. Thank you. Dr. Hamilton, I want you to get into 
this and respond to that, but I also want you to respond to a 
very profound statement that you made that I grabbed at the 
end, and I think you were saying this Lisbon Treaty with new 
reforms for the European Union will have a direct impact here 
in the United States on our domestic situation particularly in 
terms of jobs, the economy, and so forth, and I would be very 
interested for you to explain to us how this Treaty and the 
reforms through the European Union will help us with our own 
domestic concerns of jobs and the economy here, as well as you 
can take your shot at those other questions as well. And thank 
you, Mr. Chairman, that will conclude my questions.
    Mr. Delahunt. Thank you, Mr. Scott.
    Mr. Hamilton. Thank you, just to enter back into this 
debate. You know, we are in this debate on the security side as 
if this is an either or kind of choice between NATO and the EU, 
and I go back to my basic point, these are all the same 
nations, 21 of the countries are the same countries, and the 
others are all members except one of the Partnership for Peace 
with NATO. If you ask, you know, who is with us? Traditionally 
not aligned countries like Sweden, which are not in NATO, are 
actually some of our best allies.
    And they are not creating some separate entities here, this 
is one set of forces on the military side, they are double- or 
triple-hatted depending on the kinds of engagements they are 
in, and we have to step back a minute and not get locked into 
this institutional debate it seems to me because we are all the 
same countries we are trying to engage on these kinds of 
issues. And if we look at that, it is not the luxury of, you 
know, which institution gets to go deal with these challenges. 
As Assistant Secretary Gordon said, there is enough to go 
around. And given strapped resources for the United States and 
for our European allies, if they can pick up some of the slack 
in areas where the United States either does not want to be or 
cannot engage because of our other preoccupations, that should 
be welcome.
    Our concern should not be about a competitive, strong, you 
know, European counterweight at the moment, although I agree 
there are some in Europe that think that way, it is a weak 
Europe, it is the weak Europe that has gotten us into trouble 
in the past. It is a weak and fragmented Europe that was the 
principal preoccupation of the United States in the 20th 
century, and it is the potential for a stronger Europe that 
could be our counterpart and not a counterweight that I think 
would be strongly in the United States' interest.
    Mr. Delahunt. Excuse me, Dr. Hamilton, but we have 2 
minutes left.
    Mr. Hamilton. Okay, very briefly then, if I could.
    Mr. Delahunt. Sure.
    Mr. Hamilton. On the NATO EU, as the chairman said, on 
piracy it is a combined effort, and there is I think 
realization that both institutions have to work together in 
that. But as you said, the real answer to piracy is not in sea, 
it is on land. Here again the question is, can we work 
together, exchange watch lists of failing states with the EU 
Crisis Center, can we deploy the civilian authorities to deal 
with terrorism that is now building in Somalia and Yemen and 
other places? That is actually through the EU that we would do 
that, it is not a NATO per se effort. And so those are the 
kinds of things we have to do.
    On the enlargement issue, the basic principle that has I 
think given us success is that of the open door. Who is to say 
today what Europe will look like in the future? As Dr. Donfried 
said, our successes have come to say, let us build in the 
dynamism of change and, you know, 15 years from now it may be 
different. The President said, let Turkey in on the same 
conditions that you have let other countries in, no more, no 
less, it will take years, it is not an operational issue for 
today, for this administration I believe, it will be something 
for the future.
    And finally on your question about domestic, my point was 
simply that our relationship per se with Europe reaches deep 
into our societies, is driven by the private sector, is driven 
by our people. We have no deeper links than across the 
Atlantic, and those links since the end of the Cold War, seems 
counterintuitive, have deepened, not loosened. And so as I 
mentioned, the state of Georgia, there are just tens of 
thousands of Georgians who are employed by European companies, 
more than anybody else in the world. On shore jobs come from 
Europe, most of them, in the United States. So how Lisbon 
affects that, whether it helps or hinders those kinds of rules 
to provide free flow of goods and services and ideas, will be 
important to Americans. That is my basic point.
    Mr. Delahunt. Thank you, Dr. Hamilton.
    Mr. Scott. Thank you.
    Mr. Delahunt. And we are just about out of time. It has 
been a great panel, you have all educated us. I think I spotted 
Ms. McNamara's not being a Sarkozyphile, is that a fair 
statement?
    Ms. McNamara. I think he is a great advocate for French 
interests.
    Mr. Delahunt. Okay. I noticed that you said in your written 
statement, above all it is a treaty that underscores the EU's 
ambition to become a global power and challenge American 
leadership in the world. You know, that conjures up in my mind 
a little cabal sitting over in the corner plotting our demise. 
I tend to agree that, you know, these are not those stark kind 
of choices, and I don't think they are necessarily adversarial. 
And maybe it is because of my age, I have learned one thing, 
and the only certainty is that there will be change, and what 
we are trying to accomplish is change that is nonviolent and 
change that evolves over time with import from everyone. But 
you have been a great panel, and I conclude this hearing, and 
we are adjourned.
    [Whereupon, at 4:53 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
